<html>
<title> - THE FEDERAL AVIATION ADMINISTRATION'S R&D BUDGET PRIORITIES FOR FISCAL YEAR 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                 THE FEDERAL AVIATION ADMINISTRATION'S
                       R&D BUDGET PRIORITIES FOR
                            FISCAL YEAR 2008

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2007

                               __________

                           Serial No. 110-15

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
33-613                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     KEN CALVERT, California
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               TOM FEENEY, Florida
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee                   
                                     RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                             March 22, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

Statement by Representative Ken Calvert, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

                               Witnesses:

Ms. Victoria Cox, Vice President for Operations Planning 
  Services, Air Traffic Organization, Federal Aviation 
  Administration
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. R. John Hansman, Jr., Co-Chair, FAA Research, Engineering, 
  and Development Advisory Committee; T. Wilson Professor of 
  Aeronautics and Astronautics and Engineering Systems; Director, 
  MIT International Center for Air Transportation, Massachusetts 
  Institute of Technology
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Donald J. Wuebbles, Chair, Workshop on the Impacts of 
  Aviation on Climate Change; Department Head and Professor, 
  Department of Atmospheric Sciences; Executive Coordinator, 
  School of Earth, Society, and Environment, University of 
  Illinois at Urbana-Champaign
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    31

Mr. Stephen A. Alterman, President, Cargo Airline Association; 
  Chairman, Environment Subcommittee, FAA Research, Engineering, 
  and Development Advisory Committee
    Oral Statement...............................................    31
    Written Statement............................................    33
    Biography....................................................    38
    Financial Disclosure.........................................    39

Discussion
  Suggested Additional R&D Funding Priorities....................    40
  Impact of Administration's Financing Reform Package on FAA 
    Budget.......................................................    42
  Status of Research Efforts in Specific Important Areas.........    42
  Noise Reduction Funding........................................    44
  Economic Effects of Capacity...................................    45
  Airport and Airline Impacts on Human Health....................    45
  Quality of Life Issues.........................................    47
  Further Clarification of Decreased Funding in Important Areas..    51
  Recommendations Regarding NASA Funding.........................    52
  Changes to the FAA's R&D Program in the Context of the 2007 
    Operating Plan...............................................    55

              Appendix: Answers to Post-Hearing Questions

Ms. Victoria Cox, Vice President for Operations Planning 
  Services, Air Traffic Organization, Federal Aviation 
  Administration.................................................    58

Dr. R. John Hansman, Jr., Co-Chair, FAA Research, Engineering, 
  and Development Advisory Committee; T. Wilson Professor of 
  Aeronautics and Astronautics and Engineering Systems; Director, 
  MIT International Center for Air Transportation, Massachusetts 
  Institute of Technology........................................    66

Dr. Donald J. Wuebbles, Chair, Workshop on the Impacts of 
  Aviation on Climate Change; Department Head and Professor, 
  Department of Atmospheric Sciences; Executive Coordinator, 
  School of Earth, Society, and Environment, University of 
  Illinois at Urbana-Champaign...................................    71

Mr. Stephen A. Alterman, President, Cargo Airline Association; 
  Chairman, Environment Subcommittee, FAA Research, Engineering, 
  and Development Advisory Committee.............................    73


THE FEDERAL AVIATION ADMINISTRATION'S R&D BUDGET PRIORITIES FOR FISCAL 
                               YEAR 2008

                              ----------                              


                        THURSDAY, MARCH 22, 2007

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 The Federal Aviation Administration's

                       R&D Budget Priorities for

                            Fiscal Year 2008

                        thursday, march 22, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The purpose of the March 22nd Subcommittee on Space and Aeronautics 
hearing is to review the FY 2008 budget request for the Federal 
Aviation Administration's (FAA) research and development (R&D) programs 
and examine current and potential R&D priorities, including support to 
the NextGeneration Air Transportation System (NextGen). On March 29th, 
the Subcommittee will examine the NextGen initiative, which is being 
planned and developed by the interagency Joint Planning and Development 
Office (JPDO).

Witnesses:

    The witnesses scheduled to testify at the hearing include the 
following:

Ms. Victoria Cox, Vice President for Operations Planning, Air Traffic 
Organization, Federal Aviation Administration

Dr. R. John Hansman, Co-Chair, FAA Research, Engineering and 
Development Advisory Committee; Professor of Aeronautics and 
Astronautics; Director, MIT International Center for Air Transportation

Dr. Donald Wuebbles, Chair, Workshop on the Impacts of Aviation on 
Climate Change; Department Head and Professor, Department of 
Atmospheric Sciences, University of Illinois-Urbana Champaign

Mr. Steve Alterman, President, Cargo Airline Association; Chairman, 
Environment Subcommittee, FAA Research, Engineering and Development 
Advisory Committee

Background

Potential Issues
    The following are some of the issues that could be raised at the 
hearing:

        <bullet>  Are the content and priorities of FAA's R&D program 
        appropriate, and have adequate resources been allocated to the 
        program?

        <bullet>  Has FAA's R&D program been appropriately aligned with 
        the needs of the next generation air transportation system 
        (NextGen) initiative?

        <bullet>  What impact is NASA's restructuring of its 
        aeronautics program having on FAA's R&D program?

        <bullet>  What has been the impact of FAA's R&D program on the 
        aviation industry's operations?

        <bullet>  What role, if any, should FAA play in addressing the 
        R&D challenges associated with the impact of aviation on 
        climate change?

        <bullet>  Since FAA certification has become more difficult as 
        new technologies and systems become more complex, is there any 
        R&D that could improve the certification process?

Overview
    Aviation is a vital national resource for the United States. It 
supports commerce, economic development, law enforcement, emergency 
response, and personal travel and leisure. It attracts investment to 
local communities and opens up new domestic and international markets 
and supply chains. Aviation and aerospace activities make up as much as 
nine percent of America's Gross Domestic Product and also represent the 
fastest growing source for technological exports.
    Research and development (R&D) is central to maintaining and 
improving the Nation's aviation system so that it can respond to 
changing and expanding transportation needs. Civil aviation research 
and development is carried out both by NASA and by the FAA.
FAA R&D Activities
    FAA has undertaken a wide range of aviation-related R&D, including 
such categories as the following:

        <bullet>  R&D in support of the next generation air 
        transportation system (NextGen) initiative

        <bullet>  R&D to improve airport capacity and safety

        <bullet>  R&D on aviation-related environmental concerns, such 
        as noise and emissions

        <bullet>  R&D on aviation weather (aviation weather is a major 
        source of delays in the Nation's air transportation system)

        <bullet>  R&D on wake turbulence (wake turbulence has a major 
        impact on the spacing/separation of aircraft, which has an 
        impact on the efficiency of operations)

        <bullet>  R&D on air traffic control and flight deck human 
        factors

        <bullet>  R&D on aging aircraft, fire safety, safety risk 
        analysis

        <bullet>  R&D on General Aviation (GA) directed at reducing GA 
        accidents

        <bullet>  R&D on Unmanned Aircraft Systems and their 
        integration into the national airspace

    As can be seen from the above list, the R&D portfolio at FAA is 
broad. However, two caveats should be noted. First, the R&D at FAA 
tends to be near-term and more operationally focused than the 
aeronautics R&D conducted at NASA--they are intended to be 
complementary efforts. Up until NASA restructured its aeronautics 
program over the past year, NASA had typically carried its aviation-
related R&D to a level of technical maturity that enabled the FAA to 
pick it up, complete its development, and implement it in the national 
airspace system. Second, FAA's research budget for individual research 
areas can be very small--on the order of several millions of dollars in 
some cases--with the total R&D being on the order of $260 million in 
the FY 2008 budget request.
Mechanisms for Conducting FAA R&D
    FAA R&D is carried out by means of a variety of mechanisms. For 
example, the FAA maintains a Technical Center in Atlantic City, NJ 
where a range of R&D activities and test facilities are located. In 
addition, the FAA has maintained a contractual relationship with the 
Center for Advanced Aviation Systems Development (CAASD) at MITRE 
Corporation, a Federally Funded R&D Center (FFRDC) where a variety of 
R&D efforts related to air traffic management are carried out.
    The FAA has also entered into a number of partnerships with other 
federal agencies, most notably with NASA and DOD--and it has formal 
cooperative agreements with both agencies. FAA also participates with a 
number of other federal agencies on various interagency initiatives.
    Other research mechanisms include the following:

        <bullet>  Cooperative Research and Development Agreements 
        (CRDAs) with industry

        <bullet>  Small Business Innovation Research (SBIR) Grants

        <bullet>  Joint University Program for Air Transportation 
        Research (Ohio University, MIT, and Princeton)

        <bullet>  Aviation Research Grants to Universities

        <bullet>  Air Transportation Centers of Excellence (involving 
        70 academic institutions throughout the U.S.)

        <bullet>  Airport Cooperative Research Program

        <bullet>  Technology Demonstrations with industry

Relationship to NASA's Aeronautics R&D Program
    As noted above, FAA and NASA's R&D programs are intended to be 
complementary, not duplicative. The FAA describes NASA as ``the FAA's 
closest R&D partner in the Federal Government.'' In a number of key 
areas, NASA has traditionally conducted both basic research and more 
applied ``transitional research,'' with the latter R&D having the goal 
of achieving a level of technological maturity that enables the FAA to 
pick it up and implement it in the national airspace system. As a 
result, an aeronautics program at NASA that has insufficient resources 
or that is unable to carry research to the point at which it can be 
picked up by the FAA will eventually impact the R&D options available 
to the FAA. A number of organizations have raised concerns about that 
potential outcome. For example, in the area of aviation safety, the 
REDAC (FAA's R&D advisory committee) stated in its June 20, 2006 review 
of the FY 2008 FAA R&D program plans:

         ``The FAA needs to make an assessment of the impact of the 
        budget cuts in NASA's aeronautics R&D. Subcommittee on Aircraft 
        Safety is concerned that there may be inadequate resources in 
        the FAA's budget for taking on safety-related research that 
        NASA used to perform in the past but won't be funded to cover 
        in the future.''

    The Government Accountability Office (GAO) made the following 
statement in its November 2006 report on the Next Generation Air 
Transportation System (NGATS):

         ``. . .The Joint Planning and Development Office [JPDO] faces 
        challenges with some planning and expertise gaps. For example, 
        NASA is moving toward a focus on fundamental research and away 
        from demonstration projects. Many experts told us that this 
        creates a gap in technology development.''

Recommendations of External Advisory Committees
            REDAC
    The FAA has an advisory committee called the Research, Engineering 
and Development Advisory Committee (REDAC) that is tasked with 
monitoring the agency's R&D activities. One of the witnesses, Dr. 
Hansman, has been a long-time member and leader of the REDAC, and he 
will be able to outline the concerns and recommendations of that 
advisory committee. Some of its most recent recommendations include the 
following:

        <bullet>  ``Research should be conducted on advanced materials 
        and joining processes being introduced on new aircraft; on new 
        wiring technologies and on large bypass engines. Also on 
        aircraft modifications designed to mitigate the risk of 
        MANPADS, on fires due to non-HAZMAT-declared shipments, on 
        expanding operational deployment of unmanned aerial vehicles 
        [UAVs] and on reversing the trend toward a dwindling pool of 
        qualified Aviation Maintenance Technicians [AMTs].''

        <bullet>  ``[REDAC Environment and Energy] subcommittee members 
        expressed widespread concern that we need to be proactive in 
        addressing fuel availability/energy independence [and] 
        recommend that the Administrator. . .work with DOE, DOD, and 
        NASA to identify commercial needs and leverage research to 
        commonly address this challenge.''

        <bullet>  ``We need an R&D program that assesses the impact of 
        integrating unmanned aircraft systems into the national 
        airspace system. The funding for RE&D related to unmanned 
        aircraft systems in FY08 and beyond does not reflect the 
        complexity of the technical and operational issues associated 
        with their routine integration into civil airspace.''

        <bullet>  ``In anticipation of the acceleration of technology 
        deployments required to realize [the next generation air 
        transportation system] the committee recommends that FAA assess 
        the costs of [next generation system] deployments and apply 
        sufficient funds to accelerate the technology transfer and 
        implementation.''

        <bullet>  ``[The FAA needs to] establish an R&D program that 
        will lead to consistent and safe reduction of [aircraft] 
        separation standards. . .''

            National Academies' Decadal Survey
    In 2006, the National Academies completed a ``Decadal Survey'' of 
civil aeronautics and aviation research priorities. One of the research 
priorities identified in the Survey related to the certification 
process:

         ``Certification is the demonstration of a design's compliance 
        with regulations. For example, before it can be operated by 
        U.S. airlines, a new aircraft must be shown to comply with U.S. 
        federal aviation regulations. As systems become more complex 
        and non-deterministic, methods to certify new technologies 
        become more difficult to validate. . .NASA, in cooperation with 
        the Federal Aviation Administration (FAA), should anticipate 
        the need to certify new technology before its introduction, and 
        it should conduct research on methods to improve both 
        confidence in and the timeliness of certification.''

Aircraft Energy and Emissions Issues
    With respect to energy, in the last year or so there has been 
increased interest by both the military and by commercial users in 
securing a stable supply of fuel. That has led to efforts to develop 
alternative fuels for aviation. Those alternative fuels would at first 
be used to supplement petroleum-based products and eventually 
potentially replace them. The FAA has convened workshops to look at 
alternative fuels and has been developing an ``alternative fuels 
roadmap,'' but it is unclear how far FAA intends to proceed on 
alternative fuels R&D.
    With respect to emissions, an announcement late last year by the 
European Union that it intended to impose penalties in 2012 on non-
European air carriers that pollute too much has focused increased 
attention on the issue of aircraft emissions--particularly of 
greenhouse gases. The European move has been criticized and moves are 
underway to attempt to block it, but there is growing consensus that 
aviation operations will be a growing source of greenhouse gases and 
other undesirable compounds unless technological or operational fixes 
are made. Both NASA and FAA have undertaken research on aircraft 
emissions and mitigation technologies in the past, but more needs to be 
done. One of the witnesses, Dr. Wuebbles, last year chaired an FAA-
sponsored workshop on the impact of aviation on climate change, and he 
will discuss some of the research needs identified by that workshop. 
Mr. Alterman of the Cargo Airline Association is serving as the current 
chairman of the REDAC's Environment Subcommittee and can also discuss 
these issues.
Budgetary Information
    In FY 2008, the FAA plans to invest a total of $259,194,000 in R&D. 
This investment spans multiple appropriations for the FAA and includes: 
$140,000,000 in Research, Engineering and Development; $90,354,000 in 
ATO Capital; $128,000 in Safety and Operations; and $28,712,000 in the 
Airport Improvement Program.
    In general, the R,E&D account funds R&D programs that improve the 
national airspace system (NAS) by increasing its safety, security, 
productivity, capacity, and environmental compatibility to meet the air 
traffic demands of the future. The AIP account generally funds airport 
improvement grants, including those emphasizing capacity development, 
and safety and security needs; and funds grants for aircraft noise 
compatibility planning and programs and low emissions airport 
equipment. It also funds administrative and technical support costs to 
support airport programs. The ATO capital account and the Safety and 
Operations account are new account designations in the FY 2008 budget 
request. They replace the former Facilities and Equipment (F&E) and 
Operations accounts.
    A breakdown of 2008 R&D project funding is presented in Table 1, 
with applied research projects listed first, followed by development 
projects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Udall. This hearing will come to order.
    Good morning to everybody. With this being our first 
subcommittee hearing of the 110th Congress, I would like to go 
ahead and introduce several new Members of the Space and 
Aeronautics Subcommittee before we get to our opening 
statements.
    Mr. Lampson, who is returning after a brief absence, has 
joined the Committee, as has Mr. Rothman of New Jersey, the 9th 
district, Mr. Ross of Arkansas, the 4th district, and Mr. 
Chandler of Kentucky from the 6th district. I do know that Mr. 
Rothman will be joining us later. I know Mr. Ross and Mr. 
Chandler and Mr. Lampson are all trying to make time to join us 
today as well.
    At this point, I would like to recognize Mr. Calvert to 
introduce his new Members. I did want to thank Chairman 
Calvert. He is my Chairman from the last--the 109th 
Subcommittee days, and I have enjoyed working with him on the 
past, and I know we are looking forward to working together 
again.
    Mr. Calvert.
    Mr. Calvert. Well, I am getting used to sitting over here 
on the--this side of the dais, so--but congratulations, Mr. 
Chairman. I know you are going to do a great job. And I am 
equally represented by my Members as you are today. Dana 
Rohrabacher, who also chaired this subcommittee, comes from my 
home State of California, and Frank Lucas from the great State 
of Oklahoma, who is a farmer and rancher who has served a long 
time on this committee, also, Joe Bonner from Alabama from the 
good old port city of Mobile, Alabama, he is going to be with 
us a bit later, and, of course, Tom Feeney from Florida, who, 
like, Mr. Rohrabacher, won in his first elected--try at elected 
office, so he is going to be with us I think a bit later, also.
    So with that, that is my add to the Committee here.
    Chairman Udall. We have got a great team of Republicans and 
Democrats alike, and I know we are going to have a productive 
110th Congress.
    At this time, I would like to provide my opening statement, 
and then I will turn to Mr. Calvert for his.
    Good morning. Thank you to the witnesses. We have a 
distinguished panel today before us, and I want to extend my 
appreciation to all of you for your participation.
    As I did earlier, I wanted to welcome my colleagues, and in 
particular, Ranking Member Calvert, to the first hearing of the 
Space and Aeronautics Subcommittee of the 110th Congress. We 
have a good mix of returning veterans and thoughtful newcomers 
on this subcommittee. I don't know whether that means that the 
veterans aren't thoughtful, but certainly, the veterans bring a 
wealth of experience and wisdom to the Subcommittee's work.
    There are--is no lack of important issues for us to 
consider this year, and one of those issues is the outlook for 
the FAA's R&D program. A review of the FAA's R&D program is 
especially appropriate now, given that Congress will be 
reauthorizing the FAA this year, and we need to be sure that 
the FAA has a healthy and effective research capability.
    As our FAA witness will, no doubt, remind us, FAA carries 
out a wide range of R&D activities, including research related 
to such things as developing the NextGeneration Air 
Transportation System, incorporating UABs into the national 
airspace, understanding the impact of wake turbulence on 
aircraft separation standards, reducing general aviation 
accident rates and the list goes on.
    Yet, it needs to be noted that the FAA's research is 
intended to complement the aeronautics research carried out by 
NASA, not substitute for it.
    As I have said in the past, I am concerned that the changes 
NASA is making to its aeronautics program are ill advised, both 
in terms of the reduced funding commitment and in retreating 
from R&D that has direct relevance to the public good and to 
our economic well-being.
    In particular, I am concerned that the FAA's options for 
future technologies and systems are going to be negatively 
impacted by the cutbacks underway at NASA, and I intend to 
explore that issue at today's hearing.
    Another issue I would like to have our witnesses address is 
how well aligned FAA's R&D program is to the needs of the 
NextGeneration Air Transportation System Initiative. Is it 
focused on the right priorities? Does it have the right 
resource commitments?
    Finally, the issue of the impact of aviation on climate 
change is receiving increasing attention due, in part, to 
proposed European Union emissions penalties on aircraft 
operations. I think it is in our strong interest to know what 
the state of research is in this country, both on the 
scientific questions surrounding the aviation impacts and on 
the technological options for mitigating those impacts.
    Well, we have a lot to discuss today. Again, I want to 
welcome our witnesses, and I look forward to your testimony.
    [The prepared statement of Chairman Udall follows:]

               Prepared Statement of Chairman Mark Udall

    Good morning, and welcome to today's hearing.
    We have a distinguished panel of witnesses before us today, and I 
want to extend my appreciation for your participation.
    I'd also like to take a moment to welcome my colleagues--and in 
particular Ranking Member Ken Calvert--to this, the first hearing of 
the Space and Aeronautics Subcommittee in the 110th Congress.
    We have a good mix of returning veterans and thoughtful newcomers 
on the Subcommittee, and I'm really looking forward to an active and 
productive year ahead.
    Of course, there are no lack of important issues for us to consider 
this year, and one of those issues is the outlook for FAA's R&D 
program.
    A review of FAA's R&D program is especially appropriate now, given 
that Congress will be reauthorizing the FAA this year, and we need to 
be sure that FAA has a healthy and effective research capability.
    As our FAA witness will no doubt remind us, FAA carries out a wide 
range of R&D activities, including research related to such things as: 
developing the next generation air transportation system, incorporating 
UAV's into the national airspace, understanding the impact of wake 
turbulence on aircraft separation standards, reducing general aviation 
accident rates and the list goes on.
    Yet it needs to be noted that FAA's research is intended to 
complement the aeronautics research carried out by NASA--not substitute 
for it.
    As I have said in the past, I'm concerned that the changes NASA is 
making to its aeronautics program are ill-advised both in terms of the 
reduced funding commitment and in retreating from R&D that has direct 
relevance to the public good and to our economic well-being.
    In particular, I'm concerned that FAA's options for future 
technologies and systems are going to be negatively impacted by the 
cutbacks underway at NASA, and I intend to explore that issue at 
today's hearing.
    Another issue I would like to have our witnesses address is how 
well aligned FAA's R&D program is to the needs of the next generation 
air transportation system initiative. Is it focused on the right 
priorities? Does it have the right resource commitments?
    Finally, the issue of the impact of aviation on climate change is 
receiving increasing attention--due in part to proposed European Union 
emissions penalties on aircraft operations.
    I think it is in our strong interest to know what the state of 
research is in this country both on the scientific questions 
surrounding the aviation impacts. . .and on the technological options 
for mitigating those impacts.
    Well, we have a lot to discuss today.
    Again, I want to welcome our witnesses, and I look forward to your 
testimony.

    Chairman Udall. The Chair now recognizes Mr. Calvert for 
his opening statement.
    Mr. Calvert. Thank you, Mr. Chairman. Again, 
congratulations on your first hearing and calling this 
important hearing to examine the Federal Aviation 
Administration's R&D budget for fiscal year 2008.
    The FAA plays a unique federal role. Not only does it 
regulate air carriers, pilots, airports, air traffic design and 
operation, it operates the Nation's air traffic control system 
24/7. A huge part of our economy, including the commercial air 
carrier system, is dependent on the FAA to provide navigation 
and air separation services to ensure delivery of goods and 
services to every corner of our nation.
    Against this backdrop, the FAA's budget request for fiscal 
year 2008 is $14.1 billion, yet, its request for research, 
engineering and development is $140 million, or about one 
percent of its overall budget. Looking more broadly at R&D 
activities within the agency, its investment ticks up to $260 
million, not quite two percent.
    For an entity that relies on a nationwide, state-of-the-art 
network for communications, tracking, guidance systems, this is 
a startling low level of funding. Yet, it is possible because, 
historically, over the last 40 years, FAA has relied on the 
National Aeronautics and Space Administration to perform a 
large R&D role, especially in the area of air traffic control. 
The relationship between the FAA and NASA is changing, but more 
about that in a moment.
    FAA's research, engineering, and development program 
emphasizes a research agenda that focuses largely on air 
traffic design, materials, human factors, weather, environment, 
fuel, and others. The technologies they developed have led to 
important breakthrough products, examples being: fuel-inerting 
systems, flame-retardant systems, aircraft deicing systems. 
This brief list does not do justice to their work, but it gives 
an indication of the many types of valuable technologies they 
have brought to this marketplace.
    There is plenty more research to be done, especially as new 
aircraft and materials are being introduced. Consider, for 
instance, the number of very light jet models under development 
and Boeing's new 787 with the first all-composite fuselage. The 
technologies incorporated in these designs and their operation 
and behavior must be fully understood if the FAA is to maintain 
an enviable safety record. And FAA, together with other federal 
agencies, continues to do important weather-prediction 
research.
    I am concerned, however, with the FAA's R&D budget is going 
forward, especially with regard to taking on a greater role of 
researching and developing air traffic control technologies. As 
I mentioned a moment ago, NASA has traditionally done much of 
the basic research related to our nation's air traffic control 
system. But the relationship appears to be changing as NASA 
reduces its expenditures for air traffic--excuse me, aerospace 
systems research.
    NASA has also stated it will no longer develop technologies 
to the level of maturity enabling quick adoption without huge 
additional investment and years of research, a capability that 
FAA does not possess today.
    I am interested to hear from our witnesses how they 
describe FAA's challenges and whether, in their view, 
sufficient budgetary resources are being brought to bear on 
solving them, as well as to offer their assessment about the 
content and scope of FAA's R&D portfolio.
    Commercial aviation is here to stay, and roles connecting 
the world's markets is growing dramatically, both in the number 
of people carried and the amounts and value of cargo delivered. 
There is no substitute for the services aviation provides. So 
it is incumbent on government and industry to research and 
develop safer, more efficient, environmentally-benign aircraft 
to ensure uninterrupted growth in our economy.
    So I thank you again, Mr. Chairman, and look forward to 
listening to our witnesses today.
    [The prepared statement of Mr. Calvert follows:]

            Prepared Statement of Representative Ken Calvert

    Thank you, Mr. Chairman, for calling today's hearing to examine the 
Federal Aviation Administration's R&D budget request for Fiscal Year 
2008.
    The FAA plays a unique federal role. Not only does it regulate air 
carriers, pilots, airports, and aircraft design and operations, it also 
operates the Nation's air traffic control system 24/7. A huge part of 
our economy, including the commercial air carrier system, is dependent 
on FAA to provide navigation and air separation services to ensure 
delivery of goods and services to every corner of our nation.
    Against this backdrop, FAA's budget request for FY08 is $14.1 
billion, yet its request for Research, Engineering and Development is 
$140 million, or about one percent of its overall annual budget. 
Looking more broadly at all R&D activities within the agency, its 
investment ticks up to $260 million, not quite two percent.
    For an entity that relies on a nationwide state-of-the-art network 
of communications, tracking, and guidance systems, this is a 
startlingly low level of funding, yet it's possible because 
historically--over the last forty plus years--FAA has relied on the 
National Aeronautics and Space Administration to perform a large R&D 
role, especially in the area of air traffic control. The relationship 
between FAA and NASA is changing, but more on that in a moment.
    FAA's Research, Engineering and Development (R,E&D) program 
emphasizes a research agenda that focuses largely on aircraft safety 
design, materials, human factors, weather, environment, and fuels, 
among others. The technologies they've developed have led to important 
breakthrough products, examples being fuel inerting systems, flame 
retardant materials, and aircraft de-icing systems. This brief list 
doesn't do justice to their work, but it gives an indication of the 
many types of valuable technologies they've brought to marketplace.
    There is plenty more research still to be done, especially as new 
aircraft and materials are introduced. Consider, for instance, the 
number of very light jet models under development, and Boeing's new 787 
with the first all-composite fuselage. The technologies incorporated in 
these designs, and their operation and behavior, must be fully 
understood if FAA is to maintain an enviable safety record. And FAA, 
together with other federal agencies, continues important weather 
prediction research.
    I am concerned, however, about FAA's R&D budget going forward, 
especially with regard to taking on a greater role researching and 
developing new air traffic control technologies. As I mentioned a 
moment ago, NASA has traditionally done much of the basic research 
related to our nation's air traffic control system. But the 
relationship appears to be changing as NASA reduces its expenditures 
for airspace systems research. NASA has also stated that it will no 
longer develop technologies to a level of maturity enabling quick 
adoption without huge additional investment and years of research, a 
capability that FAA may not possess today.
    I'm interested to hear our witnesses describe FAA's challenges, and 
whether, in their view, sufficient budgetary resources being brought to 
bear on solving them, as well as offer their assessment about the 
content and scope of FAA's R&D portfolio.
    Commercial aviation is here to stay, and its role connecting the 
world's markets is growing dramatically, both in the number of people 
carried and the amounts and value of cargo delivered. There is no 
substitute for the services aviation provides, so it is incumbent on 
government and industry to research and develop safer, more efficient 
and environmentally benign aircraft to ensure uninterrupted growth in 
our economy.
    Thank you, Mr. Chairman, and my thanks to our witnesses for taking 
time from the busy schedules to join us today.

    Chairman Udall. Thank you, Mr. Calvert.
    If there are Members who wish to submit additional opening 
statements, those statements will be added to the record.
    At this time, I would like to introduce our excellent panel 
of witnesses. I am going to start with Ms. Victoria Cox. She is 
the Air Traffic Organization Vice President for Operations 
Planning in the Federal Aviation Administration. Next to her is 
Dr. John Hansman. He is the Co-Chair for the FAA's Research, 
Engineering, and Development Advisory Committee and is 
currently the Director of MIT's International Center for Air 
Transportation. Next to Dr. Hansman is Dr. Donald Wuebbles, who 
is the Chair--I guess was the Chair for the Workshop on the 
Impacts of Aviation on Climate Change and is presently the head 
of the University of Illinois' Department of Atmospheric 
Sciences. And to his left, we have Mr. Steve Alterman, the 
President of the Cargo Airline Association and Chairman of the 
Environment Subcommittee of the FAA's Research, Engineering, 
and Development Advisory Committee.
    You will each have, I think, as you know, five minutes for 
your spoken testimony, after which the Members of the 
Subcommittee will each have five minutes to ask questions in 
each round of questioning.
    So, Ms. Cox, we will start with you. Thank you for being 
here today.

 STATEMENT OF MS. VICTORIA COX, VICE PRESIDENT FOR OPERATIONS 
 PLANNING SERVICES, AIR TRAFFIC ORGANIZATION, FEDERAL AVIATION 
                         ADMINISTRATION

    Ms. Cox. Good morning, Chairman Udall, Congressman Calvert.
    I am Victoria Cox, Vice President for Operations Planning 
Services in the Air Traffic Organization of the Federal 
Aviation Administration.
    I would like to request that my written statement be 
included for the record.
    Chairman Udall. So ordered.
    Ms. Cox. Thank you.
    I am honored to be here this morning to testify on the 
FAA's fiscal year 2008 budget request for research and 
development activities.
    Because of the enormous economic benefits afforded by 
aviation, the United States must have an aviation system that 
is second to none, a system that can respond quickly to 
changing and expanding transportation needs. We have the most 
effective, efficient, and safest aviation system in the world 
today, but today's system is at capacity, and demand for air 
services is growing. Future congestion can only be alleviated 
by transforming the system we have today. Our current system 
just isn't scalable to handle future demand.
    We are a partner in the development of the NextGeneration 
Air Transportation System, or NextGen, envisioned by the Joint 
Planning and Development Office. NextGen includes performance 
targets that will reduce congestion by providing far greater 
capacity than our current system allows. It will deliver 
initial capabilities by 2015 that will accommodate the demand 
for forecasted--demand forecasted for that timeframe. The 
NextGen of 2025 will be capable of supporting a three-fold 
increase in demand.
    The Operational Evolution Partnership, or OEP, is the 
mechanism by which the FAA will assess R&D requirements for 
supporting NextGen. It will lay out a path from concept 
development to implementation, ensuring that our R&D is indeed 
focused on the NextGen vision. OEP version one will be 
published in June of 2007.
    Critical to FAA operations today and for NextGen are our 
research programs. The FAA has recognized this fact by 
proposing funding increases in research, engineering, and 
development totaling $280 million over the next five years. In 
fiscal year 2008, the FAA plans to invest a total of 
approximately $260 million in overall research and development.
    As the tempo of operations at our airports continues to 
rise, our research projects include the development of 
technologies that ensures safe transit of aircraft on taxiways 
and runways. We are continuing research on aviation safety 
issues. Aviation safety research is essential to meeting FAA 
flight plans, safety objectives, and NextGen performance 
targets. The potential of the NextGen system to handle 
tremendous growth in air traffic compels us to maintain our 
vigilance in safety research.
    As we look at the NextGen system, we are working hard to 
ensure that we meet the increasing demand for flying in an 
environmentally-sound manner. The focus of the Environment and 
Energy Research Program is making aviation quieter, cleaner, 
and more energy-efficient, which has added--which has the added 
benefit of reducing climate impact.
    The FAA is also planning wake turbulence research, the 
results of which will help us increase capacity while 
maintaining safety. It will help us to safely reduce separation 
distances between aircraft, support the efficient use of 
closely-spaced parallel runways, and allow airports to operate 
closer to their design capacity.
    In addition, FAA is requesting funds for further research 
on unmanned aircraft systems. The program ensures the safe 
integration of these vehicles into our system. NextGen will 
dramatically alter the roles and responsibilities of key 
players. Human factors research is needed to define the 
changing responsibilities of humans in the system to allocate 
the functions to people or to automation and to design 
automation so it serves the needs of the people who are 
accountable for system performance.
    To succeed in maintaining safety and ensuring sufficient 
capacity in the future, we do need a stable funding stream that 
will enable the FAA to launch the NextGen system. Secretary 
Peters has said that it is critical to deploy state-of-the-art 
technology that can safely handle the dramatic increases in the 
number and type of aircraft using our skies. Continued 
collaboration and success in research and development will make 
this statement a reality.
    We are enthusiastic about and we are focused on the 
opportunity to direct our R&D efforts toward the realization of 
the NextGeneration Air Transportation System, and I look 
forward to working with you to making the NextGen system a 
reality.
    This concludes my testimony, and I thank you for the 
opportunity to appear before the Subcommittee, and I would be 
happy to answer any questions you have.
    [The prepared statement of Ms. Cox follows:]

                   Prepared Statement of Victoria Cox

    Good morning, Chairman Udall, Congressman Calvert and Members of 
the Subcommittee. I am Victoria Cox, Vice President for Operations 
Planning Services in the Air Traffic Organization of the Federal 
Aviation Administration. I am honored to be here this morning to 
testify on the FAA's FY08 budget request for Research and Development 
(R&D) activities.
    Aviation is a vital national resource for the United States. It 
provides support for business, jobs, economic development, law 
enforcement, emergency response, and personal travel and leisure. It 
attracts investment to local communities, and opens up new domestic and 
international markets and supply chains. As a result, the United States 
must have an aviation system that is second to none--a system that can 
respond quickly to its changing and expanding transportation needs. 
This can only be achieved through the introduction of new technologies 
and procedures, innovative policies, and advanced management practices.
    Our nation's air transportation system has become a victim of its 
own success. We created the most effective, efficient and safest system 
in the world. But we now face a serious and impending problem: today's 
system is at capacity and demand for air services is growing rapidly.
    The FAA is committed to reducing congestion in our nation's air 
transportation system and thereby maintaining and facilitating 
increases in the economic benefits afforded by the system. Future 
congestion can only be alleviated by transforming the system we have 
today--our current system is not capable of being ``scaled up'' to meet 
future demand. We must transform the current system to the system 
envisioned by the Joint Planning and Development Office (JPDO)--the 
Next Generation Air Transportation System or NextGen. NextGen includes 
performance targets for the year 2025 that, if achieved, will reduce 
congestion by providing far greater capacity than our current system 
with higher efficiency levels than we have today, while maintaining 
safety.
    The FAA is integrating NextGen into its planning activities, 
including its five-year strategic Flight Plan. In addition, the FAA is 
using the Operational Evolution Partnership, the new OEP, to guide our 
transformation to NextGen. In the past the Operational Evolution Plan 
successfully provided a mid-term strategic roadmap for the FAA that 
extended ten years into the future. The new OEP will include strategic 
milestones through 2025, and its participants will include 
representatives from JPDO.
    OEP is the FAA's way to plan, execute and implement NextGen in 
partnership with private industry. Through OEP we are seeking 
stakeholder input, evaluating available technologies, defining and 
prioritizing research and development requirements, establishing 
milestones and commitments, and providing status, context and guidance 
for initiatives related to NextGen.
    OEP will provide a single entry point for new NextGen initiatives 
to enter the FAA capital budget portfolio. It ties these initiatives 
directly to our budget process, and it is the way that the FAA will 
implement the JPDO's vision of the future system. It will provide an 
integrated view of the programs, systems and procedures that are 
critical to transforming the system; and it will let us see them in the 
framework of the steps that must be taken by all FAA lines of business 
in order to achieve timely implementation. It also allows us to 
understand the near-term steps and mid-term goals that we must 
accomplish to sustain and improve the National Airspace System (NAS) on 
our way to the NextGen system of 2025.
    Research is absolutely critical to FAA operations today and for 
NextGen. FAA has recognized this fact by proposing funding increases in 
R&D totaling $280 million over the next five years. These funding 
increases are enabled by the financing reforms contained in the 
Administration's proposal to reauthorize the FAA. Among other reforms, 
H.R. 1356, the NextGen Financing Reform Act of 2007, adopts cost-based 
user fees (or offsetting collections) for the costs of air traffic 
control services for commercial aviation users. FAA's annual spending 
of these user fees would be fully offset by the user fee collections. 
Therefore, FAA's spending would rise or fall based on FAA's costs and 
would not compete with any other discretionary budget priorities (as 
spending Trust Fund revenues do today).
    The FAA uses R&D to achieve its near- and long-term goals and 
objectives. In the past, the R&D program was driven by the near-term 
operational needs of the aviation system, and a large share of the 
agency's R&D was focused on specific near-term safety and capacity 
issues. The FAA's R&D program is being adapted to be more flexible, 
balanced, and dynamic so we can respond simultaneously to the critical 
near-term needs of the system while providing for the NextGen system. 
The OEP is the mechanism by which the FAA will assess R&D requirements 
for supporting NextGen, and new initiatives will be reviewed and 
prioritized before inclusion in Agency budget planning.
    Research and Development will help FAA achieve NextGen by 
identifying challenges, understanding barriers, and developing 
solutions across the parameters of safety, environment, air traffic 
management, human factors, systems integration and self-separation. To 
better manage our R&D program, we have developed the National Aviation 
Research Plan (NARP), which describes the FAA R&D programs that support 
both the day-to-day operations of the National Airspace System and the 
vision for NextGen. The projects identified in the NARP enable the FAA 
to address the current challenges of operating the safest, most 
efficient air transportation system in the world while building a 
foundation for NextGen. Research makes known the unknown. It identifies 
constraints and barriers, separates solutions that are effective from 
those that are not, and will help transform our nation's air 
transportation system.
    Even before NextGen and the new OEP, we have not been developing 
our R&D goals and portfolio in a vacuum. We continually assess our 
research program in conjunction with our stakeholders and customers to 
ensure we keep our R&D resources focused on the most critical tasks. 
The R&D program receives expert advice and guidance from the Research, 
Engineering and Development Advisory Committee (REDAC). Established by 
Congress in 1989, the REDAC reports to the FAA Administrator on 
research and development issues, and provides a liaison between our R&D 
program and industry, academia, and other government agencies. The R&D 
program benefits significantly from the recommendations provided by the 
REDAC. The committee, its subcommittees and working groups work hand-
in-hand with us to develop our R&D program. As our advisory committee 
members will probably tell you, one of our greatest challenges is our 
ability to define what the future system will look like. Of what 
technologies will it be comprised? JPDO has just within the last few 
weeks released the NextGen Concept of Operations, and in the next few 
months will publish the NextGen Enterprise Architecture. The 
significance of these documents should not be understated. They are 
essential to understanding the transformed operational environment; 
will allow us to more precisely develop a plan for achieving it; and 
will provide the basis for architecture-based, quantitative resource 
planning.
    In fiscal year 2008, the FAA plans to invest a total of 
approximately $259 million in Research and Development. $140 million of 
this total is for Research, Engineering and Development (RED), which 
breaks down as $123 million from the Airport and Airways Trust Fund, 
and $17 million from the General Fund.
    The RED budget request includes $91.3 million in RED for continued 
research on aviation safety issues. This request supports critical 
safety research in the areas of: continued airworthiness of aging 
aircraft, fire safety, advanced aircraft materials and structural 
safety, catastrophic failure prevention, atmospheric hazards, 
propulsion and fuel systems, and weather. Aviation safety research is 
essential to meeting FAA Flight Plan safety objectives and NextGen 
performance targets. The potential of the NextGen system to handle 
tremendous growth in air traffic compels us to maintain our vigilance 
in safety research. We must continue to invest in aircraft safety to 
reduce accident rates to insure that an increase in accidents does not 
accompany the increase in traffic.
    An investment in safety R&D has and will continue to result in 
critical safety improvements for the flying public. Our scientists and 
engineers, for example, are developing a fire proof airline cabin, 
improving aviation maintenance programs, developing better weather 
forecasts, ensuring the safety of composite aircraft components, 
reducing runway incursions, and creating new, more effective ways to 
train pilots, controllers, dispatchers, and crews.
    In addition to safety programs, RED funding includes environmental 
issues, wake turbulence projects, unmanned aircraft systems, and human 
factors studies.
    As we look at the NextGen system we are working hard to ensure that 
we meet the increasing demand for flying in an environmentally sound 
manner. The focus of the environment and energy research program is 
making aviation quieter, cleaner, and more energy efficient--which has 
the added benefit of reducing climate impact. We are investing in 
research and development, and demonstration projects that will help us 
better understand aviation's environmental health and welfare impacts 
and bring new technologies, operational innovations, and other 
capabilities on line to address and reduce these impacts. In FY08 we 
are requesting $15.5 million in environment and energy research as well 
as $3 million for environment projects under the Airports Cooperative 
Research Program, funded under the Airport Improvement Program.
    The FAA is also requesting funds to support wake turbulence 
research, the results of which will help us increase capacity while 
maintaining safety. This program provides a better understanding of the 
swirling air masses, or wakes, trailing downstream from aircraft 
wingtips. It will help us to safely reduce separation distances between 
aircraft, support the efficient use of closely spaced parallel runways, 
and allow airports to operate closer to their design capacity. FAA is 
requesting an increase in funding for wake turbulence research from $4 
million in fiscal year 2007 to $13.7 million in fiscal year 2008, 
including $3 million in the ATO Capital request.
    In addition, FAA is requesting funds to further research on 
unmanned aircraft systems. The program ensures the safe integration of 
unmanned aircraft systems into the National Airspace System. This 
research provides information to support certification procedures, 
airworthiness standards, operational requirements, maintenance 
procedures, and safety oversight activities of unmanned aircraft system 
civil applications and operations. FAA is requesting an increase in 
funds for unmanned aircraft systems research to $3.3 million for fiscal 
year 2008.
    Human Factors projects will develop procedures, training and 
decision support approaches that mitigate human error while exploiting 
the innovation and problem-solving capacity that is the hallmark of 
human behavior. We will also develop system performance metrics that 
include people as critical elements of system performance while 
evaluating the impact of new technologies and procedures on human 
decision-making through integrated demonstrations. In fiscal year 2008, 
FAA is requesting $19.9M for human factors research and engineering 
efforts.
    The R&D request includes $18 million to continue supporting the 
JPDO ($14.3M in RED and $3.5M in ATO Capital). As the unit that 
spearheads NextGen for the Federal Government, JPDO will continue 
defining the future operating environment, identifying demonstration 
opportunities, and working with the relevant agencies who will 
implement the JPDO vision.
    $90 million in the ATO Capital account request is intended for 
research and development work. This includes $23 million for the R&D 
work at the MITRE Center for Advanced Aviation System Development 
(CAASD). Other requests for Capital funding include the NextGen 
demonstration projects. We are requesting $20 million to stage NextGen 
Demonstration projects that will be used to lower risk; identify early 
implementation opportunities; refine longer-term objectives; 
demonstrate compatibility with other JPDO agencies; and, if results 
dictate, eliminate certain concepts from further consideration.
    We are requesting $28 million for research and development under 
the Airport Improvement Program. The two key elements of the AIP 
program are increasing the capacity of our nation's airports and 
improving the safety of aircraft operating from these airports. As the 
tempo of operations at our airports continues to rise, AIP research 
projects include the development of technologies that insure safe 
transit of aircraft on taxiways and runways, improved runway designs 
that insure the safe control of aircraft landing in ice and snow 
conditions, and the development of state-of-the-art crash and rescue 
equipment to minimize the loss of life and injury in the event of an 
accident. In addition to our in-house airport research, the Airport 
Cooperative Research Program, funded through AIP, helps us leverage 
outside R&D expertise by providing grants to research institutions to 
help us solve real-world airport safety and capacity issues.
    Given expected demand growth, it is important to improve operations 
well in advance of 2025 so we can avoid gridlock, especially since we 
expect one billion passengers per year traveling in the system by 2015. 
With that in mind, we are conducting research to support mid-term 
capabilities that must be in place to address demand forecasted for 
that time frame. The OEP is helping us to define projects that deliver 
mid-term results and also provide the stepping stones to NextGen.
    We believe that a timely and efficient transition to NextGen 
requires us to participate in concept development and validation, 
prototyping and field demonstrations. Such involvement will give us in-
depth understanding of required NextGen operational improvements and 
hasten our ability to implement NextGen systems in the National 
Airspace System. The President's budget request for FY08 includes an 
estimated $4.6 billion for NextGen investments over the next five 
years. That number includes increases in funding for SWIM from $21 
million to approximately $52 million, while funding for NAS-wide 
implementation of ADS-B goes from $86 million in FY08 to an estimated 
$156 million in FY12.
    We have been working closely with the JPDO on defining mid and 
long-term R&D activities that support seven solution sets that are key 
to NextGen: initiation of trajectory-based operations; increased 
arrivals/departures at high density airports; increased flexibility in 
the terminal environment; improved collaborative air traffic 
management; reduced weather impact; increased safety, security and 
environmental performance; and transformed/networked facilities.
    Trajectory-based operations, or management by trajectory, will 
allow aircraft to fly trajectories negotiated with air traffic control 
as opposed to today's practice of managing aircraft sector by sector 
and requiring them to fly routes specified by air traffic control. 
NextGen demonstrations in fiscal year 2008 will test various aspects of 
trajectory-based management in the oceanic environment and demonstrate 
how oceanic flights using tailored routes can avoid congestion and take 
advantage of shorter routes.
    High density airports are those where demand for runway capacity is 
high, there are multiple runways with airspace and taxiing 
interactions, or there are other airports in close proximity that 
create the potential for airspace interference. Airspace redesign 
coupled with new concept validation work will support this solution 
set.
    Flexible terminals and airports will apply technologies that 
enhance both pilot and controller situation awareness and improve 
service on the ground. Wake turbulence research will support reduced 
separation standards that will contribute to this theme.
    Collaborative air traffic management will consist of strategic and 
tactical interactions between air traffic controllers and customers. It 
will include flow programs as well as collaboration on procedures to 
shift demand to other routings, altitudes, times, etc.
    Enhanced weather forecasts as well as improved use of forecasts 
will contribute to a reduction in weather impacts. Weather plays a 
critical role in air traffic congestion and delays in today's system. 
As much as sixty percent of today's delays and cancellations for 
weather stem from potentially avoidable weather situations. For fiscal 
year 2008 and beyond, FAA is focusing on capabilities to help 
stakeholders at all levels make better decisions and better react to 
avoidable weather situations thus minimizing their impact.
    Safety, security and environment enhancements will result from 
deployment of new procedures and systems that support NextGen 
objectives. The Runway Status Lights program, for example, under our 
Runway Incursion Reduction funding supports this safety theme. R&D 
funded environment and energy programs also contribute significantly 
here. The estimated $4.6 billion in NextGen investments over the next 
five years also includes several initiatives to deal with aviation 
environmental issues. Historically, new technology accounts for 90 
percent of environmental footprint reduction. Our prototype Continuous 
Descent Approach (CDA) has the double benefit of reducing noise and 
emissions. We are seeking to expand on this work in fiscal year 2008 
and beyond to develop and prototype air traffic and ground procedures 
to reduce aircraft noise and fuel burn and emissions. And we are 
seeking to advance Environmental Management Systems by developing 
noise, local air quality and climate impacts metrics and decision 
support tools that will allow us to dynamically manage the 
environmental impacts of the NextGen system.
    Human Factors considerations overlie all of these themes. NextGen 
systems will dramatically alter the roles and responsibilities of key 
players in the National Airspace System: pilots will take on more 
separation responsibilities; automation will enable air traffic 
controllers to manage larger numbers of aircraft while improving 
safety; network-enabled operations will provide broader situation 
awareness to stakeholders throughout the system and enable a new level 
of air-ground cooperation. Human factors research is needed to define 
the changing responsibilities of humans in the system, to allocate 
function to people or automation and to design automation so it serves 
the information needs of the people who are accountable for system 
performance. We are requesting funding increases in fiscal years 2008-
2012 for human factors R&D in both the RE&D and ATO capital programs.
    Proposed Research and Development in support of the seven NextGen 
solution sets will be outlined in the publication of OEP Version One in 
June 2007. The OEP will lay out the path from concept development to 
implementation in the National Airspace System, ensuring that our R&D 
is indeed focused on achieving NextGen capabilities.
    Our planning is also in line with the Administration's National 
Aeronautics Research and Development Policy published in December 2006. 
As outlined earlier in this testimony, we propose to conduct research 
in areas that support safety, the environment and air traffic 
management; we plan to conduct research to support certification of 
safety and environmental performance of aircraft systems; we are 
working and plan to continue to work to bring our requirements in line 
with NextGen; and through the OEP, we are aligning our efforts with 
NextGen.
    To succeed in maintaining safety and ensuring sufficient capacity 
in the future, we do need a stable funding stream that will enable the 
FAA to launch the NextGen system. This is critical, as Secretary Peters 
stated ``if we are to deploy the state-of-the-art technology that can 
safely handle the dramatic increases in the number and type of aircraft 
using our skies.'' As outlined in the H.R. 1356, the NextGen Financing 
Reform Act of 2007, research will be funded to allow critical safety 
and capacity R&D to continue at a pace necessary to field NextGen 
technologies by 2025. These increases in research funding are linked to 
and dependent on this proposal. We are enthusiastic about and focused 
on the opportunity to direct our R&D efforts toward the realization of 
the Next Generation Air Transportation System, and look forward to 
working with this committee to make the NextGen vision a reality.
    This concludes my testimony, and I thank you for the opportunity to 
appear before the Committee. I would be happy to answer any questions 
the Committee may have.

    Chairman Udall. Thank you, Ms. Cox.
    Dr. Hansman, the floor is yours.

STATEMENT OF DR. R. JOHN HANSMAN, JR., CO-CHAIR, FAA RESEARCH, 
  ENGINEERING, AND DEVELOPMENT ADVISORY COMMITTEE; T. WILSON 
   PROFESSOR OF AERONAUTICS AND ASTRONAUTICS AND ENGINEERING 
      SYSTEMS; DIRECTOR, MIT INTERNATIONAL CENTER FOR AIR 
     TRANSPORTATION, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Dr. Hansman. Yes. I also submitted written testimony, which 
I hope will go in the record.
    But as a Professor, I have to have slides. So the United 
States has, as Ms. Cox said, the best and most efficient air 
transportation system in the world. This is a complex, adapted 
system that has evolved over the past seven years. This shows 
you the traffic in one day over the system.
    [Slide.]
    The system is being stressed by demand on the system. The 
blue line here shows you the North American revenue passenger 
kilometer trends. You can see that the demand is increasing and 
is expected to increase in the future.
    The stress is starting to show in a couple of places. One 
is delays. This shows you the delay patterns over time. You can 
see that the delays have been building in the system. They were 
moderated somewhat by the attacks, the drop in traffic after 
September 11. The demand is back up in the system, but the 
other thing is, if you look at this carefully, the blue line is 
the month-by-month data. You can see that, starting in 1998, 
the system started to become marginally stable, and you can see 
volatility in the delays due to weather impacts and other 
demands on the system.
    In addition, you have issues, such as fuel price, so this 
shows you the jet fuel price as a function of time, and you can 
see, over the past several years, we are at extremely high 
levels of fuel. Not only fuel is an issue, but also 
environmental. This is an example of an analysis done by the 
SAGE tool. One of my colleagues, Professor Ian Wates, who is 
part of the partner program. This actually shows you the carbon 
emissions, carbon dioxide emissions from aircraft over the 
world. And you can see the two hotspots in the world are the 
United States and Europe. So there is significant concern 
there.
    I want to go to the questions that I was asked to address.
    First, is what concerns, if any, does the REDAC have about 
the content priorities of the FAA's R&D programs, what we would 
recommend to be done? In general, the REDAC has been generally 
supportive of the content of the programs evaluated by a number 
of the subcommittees. There is, as been noted earlier, concern 
about the declining support for the national support for 
aeronautics research and development both the FAA and R&D, the 
concern that this resulted in decline in the national 
capability in aeronautics and air transportation. We are also 
concerned about the FAA's ability to attract and retain people 
in emerging technology areas. Some of the examples are safety-
critical software, systems engineering, data mining.
    Another question was: what impact does NASA's restructuring 
of its aeronautics program have on the FAA's R&D program? To 
the extent we know, NASA's program is transition--in 
transition, so it is a little bit difficult to address--assess, 
but there is clearly a shift to more fundamental, long-term 
research, which is probably appropriate, but it is unclear 
where that is going to go, and also a shift to lower, what we 
call, technology-readiness levels.
    So there is going to be some need to cover the short-term 
gap and also applied aeronautics issues, and the FAA may have 
to pick these up. The particular concerns in this technology 
maturity gap for technologies that NASA develops, they won't be 
taking them far enough to really field, so someone is going to 
have to come into the gap and figure out how to mature these 
technologies to the point that they are ready to go into the 
system. There is also concern about things that have been 
historical areas of excellence for NASA, such as human factors. 
And there are a number of databases that NASA has been 
particularly managing that will have to be taken over. And 
again, this general concern about loss of national capability 
in applied aeronautics. And finally, the human resources 
pipeline. If we are not supporting aeronautics research, it is 
hard to motivate faculty and students to move into these areas 
that are going to be critical for us in the future.
    To what extent has the FAA's R&D programs been integrated? 
NextGen is--with the NextGen and JPDO, NextGen is still a work-
in-progress. It is influencing the R&D requirements, and there 
have been initial implementation efforts, but there is a 
concern about the balance between the near-term and long-term 
issues.
    Finally, in terms of major challenges, there are a number, 
but the one I really want to get to is the difficulty of us 
for--to actually implement technologies into the system. This 
is a simple model one of my students developed, looking at how 
technologies come into the system. The challenge we have now is 
these take a long time. It is typically decades to get new 
technologies in the system. Another thing is we have actually 
lost some of the national capability to do major changes in the 
system, because the NAS, the National Aeronautics System, has 
been stable for the past 40 or 50 years. So as we contemplate 
major changes from the JPDO, it is not really clear that we 
have the safety and environmental approval process capability 
to rapidly implement these systems, so this is a major area of 
concern, and I would be happy to talk about it more later.
    [The prepared statement of Dr. Hansman follows:]

               Prepared Statement of R. John Hansman, Jr.

Chairman Udall and Members of the Subcommittee:

    Thank you for the opportunity to comment on the Federal Aviation 
Administration's research and development capability. I am a Professor 
of Aeronautics and Astronautics at the Massachusetts Institute of 
Technology and the Co-Chair of the FAA Research and Development 
Advisory Committee (REDAC). The REDAC is a Congressionally mandated 
committee which advises the FAA Administrator on research and 
development.
    The roll of research and development in the FAA is to support 
current and future operational requirements as well as the agency's 
mission of providing a safe, secure, and efficient global aerospace 
system. The U.S. has the best and highest performance Air 
Transportation System in the world. There are, however, increasing 
signs that the system is under stress. Let me highlight a few examples.
    The system is approaching its capacity limits at key points. As a 
result, due to increasing demand (Figure 1) and the highly integrated 
nature of the network (Figure 2), nominal interruptions, such as 
weather problems, result in a nonlinear increase in system delay. This 
can be seen in the national data shown in Figure 3 where summer delays 
began to amplify in 1998. Delays were subsequently moderated due to 
traffic reduction following the attacks of September 11, 2001. As 
traffic levels have returned, the overall delays have grown to record 
levels and expected to grow in the future. The FAA and airlines have 
actually done a remarkable job of minimizing delays given the limited 
airport and system capacity, but major weather related delay events, 
such as those at Denver, New York, and the problems last weekend on the 
east coast are further indications of system vulnerability.
    Other factors stressing the system are emerging requirements for 
increased fuel and environmental efficiency. Aviation fuel prices 
(Figure 4) have, like other fuel sources, increased markedly in recent 
years and are likely to remain high. Environmental issues are becoming 
increasingly prominent internationally and at home. Concern over 
aviation noise continues to limit our ability to expand operations at 
key airports and the increased attention on global warming is driving 
requirements on aircraft emissions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I will comment briefly on the specific questions which you have 
asked me to address.

What concerns, if any, does the REDAC have about the content and 
priorities of the FAA's R&D program, and what would the REDAC recommend 
be done?

    The REDAC has been generally supportive of the specific content of 
the FAA's R&D programs given the limited resources allocated to R&D and 
system development. The REDAC subcommittees review the R&D programs in 
the areas of Airports, National Airspace System Operations, Human 
Factors, Environment & Energy, and Safety and generally have concurred 
with the FAA's R&D plans.
    The REDAC has been concerned for a number of years that the 
declining support for aeronautics R&D both at the FAA and NASA have 
resulted in the decline of national aeronautics capability. In some 
important areas research efforts are below critical mass and others are 
not supported at all.
    The REDAC is also concerned about the ability of the FAA to attract 
and retain highly skilled personnel in emerging technology areas which 
are important to the FAA R&D mission. Important efforts such as the 
Safety Management System are not as effective as they should be due to 
lack of intellectual capital. The REDAC has recommended the FAA 
increase its capability in key emerging areas such as; complex safety 
critical software, system engineering, and safety data mining.

What impact is NASA's restructuring of its aeronautics program having 
on FAA's R&D program?

    The restructuring of the NASA aeronautics program has significant 
implications on the FAA R&D program. Over the past decade, as 
aeronautics research support in the U.S. has declined, the FAA and NASA 
have worked to integrated their research programs to avoid duplication 
and to cover key topics in the areas of aviation safety, aircraft 
technology, and air traffic control. NASA has shifted its focus to 
longer-term and more fundamental aeronautics research and developing a 
core knowledge base. While this is a reasonable strategy given their 
limited resources it will be incumbent for the FAA or some other agency 
to cover shorter-term and applied civil aeronautics issues which NASA 
had previously addressed. It should be noted that this has been a 
difficult area to assess as the NASA program has been in transition and 
it is still not fully clear what the full content of the NASA's program 
will be and it's consequent impact on the FAA.
    There are, however, several areas of concern. One is the technology 
maturity gap problem. As NASA has limited its focus on lower Technology 
Readiness Levels (basic research and technology feasibility) the FAA 
will have to pick up more responsibility for moving key technologies 
for the NAS through the mid TRL levels (development and demonstration). 
This will be in addition to the FAA's normal efforts at high TRL level 
system integration. The REDAC, among others, have highlighted this 
issue and the FAA has proposed several efforts to address the TRL gap. 
In some areas (e.g., Environmental) the technologies will benefit both 
industry and government so the FAA has been able to propose cooperative 
agreements with industry such as the Research Consortium for Lower 
Energy, Emission, and Noise Technology Partnership. In other areas 
(e.g., Air Traffic Management and Safety Analysis) the FAA will be the 
primary technology user and will have to manage the higher TRL level 
efforts. This will require resources and will likely be a significant 
challenge for the FAA.
    Another area of concern is the maintenance of aviation safety and 
human factors databases developed through long-term NASA efforts. 
Through the Aviation Safety and Reporting System (ASRS) and several 
human factors field studies, NASA has developed several databases which 
are national assets and relied on by the FAA and other aviation safety 
researchers. If NASA does not continue to support these databases it 
will be necessary to protect these resources.
    Finally there is the issue of nurturing and maintaining the 
national capability in applied aeronautics. It is important for the FAA 
and NASA to work together to encourage and enable the next generation 
who will move the system forward. There are some notable successes such 
as the FAA Centers of Excellence and the recent NASA NRA program. 
However, the general decay in aeronautics research coupled with re-
structuring uncertainty has had an adverse impact on university 
programs and the pipeline of young talent attracted to solving the 
challenges which the FAA will face.

To what extent has FAA's R&D program been integrated with the needs of 
the JPDO, and is that an appropriate level of integration?

    To the extent that the JPDO has been able to define near-term 
operational and R&D requirements the FAA has begun to integrate them 
into its plans. Examples include the initial implementation of ADS-B 
and System Wide Information Management (SWIM) as well as increased FAA 
support for environmental programs. However, the NextGen system is 
still a work in progress and is not sufficiently defined to drive a 
majority of the FAA R&D programs. In addition, as the JPDO is focused 
on longer-term transformational concepts, there is a tension between 
those needs and the R&D required to address nearer-term issues and to 
manage the system.

What are the major challenges facing the FAA's R&D program over the 
next five years?

    Building and maintaining the intellectual capability in the FAA as 
well as supporting R&D organizations, balancing both near-term and 
long-term (NextGen) issues, and finding the resources to excel will be 
challenges.
    However, I believe that the major challenge for the FAA R&D program 
and the agency as a whole will be to find ways to efficiently and 
quickly implement the technologies, and new operational concepts into 
the NAS while maintaining or increasing level of safety and minimizing 
environmental impact. This will be necessary to support both near-term 
and NextGen system transitions. It is unclear if we have the strategic 
core competency to effectively implement the new concepts in the NAS 
and we must develop approaches to enable effective transition.
    Figure 5 depicts a simple model of change and system transition in 
the NAS (developed by one of my students Aleksandra Mozdzanowska) which 
illustrates this point. Change can be motivated by safety, capacity, 
efficiency, environmental or other concerns and we often focus R&D on 
the technology or operational concept aspects indicated on the right 
side of the figure. However, success will be determined by how well we 
can implement and develop system capability as indicated on the left 
side of Figure 5. The time constant for implementation can be very long 
and most major system changes have historically taken decades.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As our expectations for safety and environmental impact have 
increased, the safety and environmental standards have risen and these 
can be significant barriers to implementation. Many of the standards 
post date the basic technical and operational structure of the NAS 
which has been fairly stable for the past 30 to 50 years. As a 
consequence there is very little experience in making the type of major 
system changes envisioned in the NextGen operational concepts, 
procedures, and capabilities, particularly those which simultaneously 
require air and ground system changes.
    Given the number and complexity of expected operational 
capabilities envisioned over the next five to 10 years the FAA will 
need to develop new approaches to program management, safety and 
environmental analysis, as well as efficient processes for operational 
approval which ensure that safety, environmental, schedule, and cost 
goals are met.

    Chairman Udall. Thank you, Doctor.
    Dr. Wuebbles, the floor is yours.

  STATEMENT OF DR. DONALD J. WUEBBLES, CHAIR, WORKSHOP ON THE 
  IMPACTS OF AVIATION ON CLIMATE CHANGE; DEPARTMENT HEAD AND 
   PROFESSOR, DEPARTMENT OF ATMOSPHERIC SCIENCES; EXECUTIVE 
    COORDINATOR, SCHOOL OF EARTH, SOCIETY, AND ENVIRONMENT, 
           UNIVERSITY OF ILLINOIS AT URBANA-CHAMPAIGN

    Dr. Wuebbles. Thank you, Mr. Chairman.
    Let me first start by--I have a written statement, but even 
though I am a professor, I am going to actually read my 
statement instead of using slides.
    Chairman Udall. Doctor, you should turn on your mike or 
bring it closer.
    Dr. Wuebbles. Okay. Thank you.
    Good morning, Mr. Chairman, and Members of the Committee. 
My name is Don Wuebbles. I am a professor of atmospheric 
sciences and Director of the School of Earth, Society, and 
Environment at the University of Illinois-Urbana Champaign.
    Thank you for the invitation to testify in support of a new 
research agenda in the United States for understanding the 
impact of aviation on the Earth's climate.
    In June 2006, I organized and chaired a workshop on the 
impacts of aviation on climate change that was developed in 
coordination with the Federal Aviation Administration. The 
findings from the international panel of experts participating 
in that workshop are the basis for my statement.
    The 2004 report to Congress from the Partner Center for 
Excellence at MIT indicated that the most serious, long-term 
environmental issue facing the aviation industry may be the 
effect of aviation emissions on climate, both because of 
potential impacts, and also because of the lack of 
understanding of the issues.
    Projections from industry and from governmental 
organizations, including the FAA, suggested that over the next 
two decades, the demand for aviation could grow to three times 
its present level. This projected growth will likely result in 
increased impacts from aviation on the environment. One 
important concern is aircraft influence released at cruise 
altitudes that interact with background atmosphere and undergo 
complex processes, resulting in potential impacts on climate.
    Our workshop examined the current state of scientific 
knowledge about the effects of aviation on climate, identified 
key uncertainties and gaps, and determined further research 
needs.
    I will describe some of the findings and what is still 
unclear, but the bottom line is that because of potentially 
serious implications of aviation influence on our planet, 
further research, and funding for that research, are 
imperative.
    Aviation contributes about two percent of the global human-
related emissions of carbon dioxide. As a result of policies to 
reduce other human-related emissions, this percentage could 
increase in the future. The climate effects from the emissions 
of carbon dioxide are much better known than the effects from 
other aviation emissions, particularly the effects resulting 
from nitrogen oxide emissions on atmospheric ozone and methane, 
the effects from emitted aerosols and aerosol pre-cursors, and 
the climate effects associated with contrail and cirrus cloud 
formation. The scientific understanding of those effects range 
from fair to poor, very poor.
    The estimates of climate impacts due to contrail and 
contrail-induced high-altitude cirrus clouds are especially 
uncertain. Contrails form if ambient air along the flight track 
is colder and moister than the threshold based on known 
thermodynamic grandeurs that are currently not well 
characterized at cruise altitudes. In high, supersaturated air 
masses, contrails can organize themselves in clusters that add 
significantly to the natural high cloud cover that can affect 
climate. The workshop recommended new, carefully-coordinated, 
regional-scale measurement campaigns along with process studies 
and laboratory studies towards understanding the factors 
affecting the growth, decay, and trajectories of contrail ice 
particles and determine resulting effects on cirrus, including 
the role of aerosols.
    The workshop also found much better--that much better 
approaches are needed for comparing relative effects of all 
aviation emissions on climate, particularly to place those 
effects on a common scale for assessing the overall climate 
impact and to quantify the potential trade-offs on the climate 
impact due to aircraft technology, aircraft operations, and 
various policy scenarios. For example, should the aviation 
community emphasize increased energy efficiency, thus reducing 
emissions of carbon dioxide, are policies to reduce formation 
of contrails and effects on cirrus clouds.
    This is an important consideration for national and 
international policy. Some in Europe are advocating action 
without adequate analysis, which could lead to bad, unintended 
consequences.
    As a key conclusion, the workshop participants acknowledged 
an urgent need for aviation-focused research activities to 
provide better science-based understanding of the impacts of 
aviation emissions on climate change. We need improved metrics, 
measurement techniques, and modeling capabilities to quantify 
and predict impacts and to understand the interrelationships of 
aviation and environmental factors.
    This effort will entail coordination with existing and 
planned climate research programs within government agencies 
and could be organized through expansion of such programs or by 
totally new activities. The workshop participants indicated 
that such efforts should include strong and continued 
interactions among the science and aviation communities as well 
as among policymakers to develop well-informed decisions.
    The next steps required include further ranking and 
prioritizing of identified research needs, creating a research 
roadmap with associated roles and responsibilities of various 
participating agencies and stakeholders, and identifying 
resources needed to implement the roadmap.
    The FAA has already taken some steps to make resources 
available. There is funding allocated to these efforts in the 
fiscal year 2008 President's budget starting in fiscal year 
2009; however, one agency cannot do it alone. This should be a 
focus of the U.S. Climate Change Science Program. The need is 
immediate. We need scientific focus and resources in the United 
States to pursue aviation climate impact research to put us in 
a position to make smart decisions for the NextGen aviation 
system and to allow us to shape the international debate with 
the International Civil Aviation Organization and other forums.
    Thank you.
    [The prepared statement of Dr. Wuebbles follows:]

                Prepared Statement of Donald J. Wuebbles

                  The Need for New Research to Address

               the Impacts of Aviation on Climate Change

    Good morning Mr. Chairman and Members of the Committee.
    My name is Don Wuebbles. I am a Professor of Atmospheric Sciences 
and Director of the School of Earth, Society, and Environment at the 
University of Illinois at Urbana-Champaign.
    Thank you for the invitation to testify today about the need for a 
new research agenda in the U.S. for understanding the impacts of 
aviation on the Earths' climate system. In June 2006, I organized and 
chaired a workshop on the impacts of aviation on climate change that 
was developed in particular coordination with the Federal Aviation 
Administration. This workshop was sponsored jointly by the U.S. Next 
Generation Air Transportation System (NGATS) Joint Planning and 
Development Office Environmental Integrated Product Team JPDO/EIPT and 
Partnership for AiR Transportation Noise and Emissions Reduction 
(PARTNER) Center of Excellence. The resulting findings from the 
international panel of experts participating in that workshop are the 
basis for my statement.
    A 2004 report to Congress from the PARTNER Center for Excellence at 
MIT indicated that the most serious long-term environmental issue 
facing the aviation industry may be the effects of aircraft emissions 
on climate--both because of potential impacts and also the lack of 
understanding of the issues. Projections from industry and from 
governmental organizations, including the FAA, suggest that over the 
next two decades, the demand for aviation could grow to about three 
times its present level. This projected growth will likely result in 
[higher aviation emissions of various pollutants and associated] 
increased impacts from aviation on the environment, and human health 
and welfare. [These effects are dependent upon a variety of factors 
(such as the size and mix of the operational fleet necessary to meet 
the stated demand as well as mitigation steps such as new technological 
advances, more efficient operational procedures, market based options 
and regulatory intervention).] One of the most important concerns is 
the potential impact of emissions on the climate. Once released at 
cruise altitudes [within the upper troposphere and lower stratosphere], 
the aircraft effluents interact with the background atmosphere and 
undergo complex processes, resulting in potential impacts on the 
Earth's climate system.
    Our workshop examined the current state of scientific knowledge 
about the effects of aviation on climate, identified key uncertainties 
and gaps, and determined further research needs. I will describe some 
of our findings and what is still unclear. But the bottom line is that 
because of the potentially serious implications of aviation effluents 
on our planet, further research and funding for that research are 
imperative.
    In agreement with earlier studies [e.g., the 1999 assessment by the 
international science community through the Intergovernmental Panel on 
Climate Change (IPCC)], the workshop concluded that the major ways that 
aviation can affect climate are the direct effects from aircraft 
emissions of the important greenhouse gas carbon dioxide 
(CO<INF>2</INF>) (and, to a much lesser extent, water vapor), the 
indirect forcing on climate resulting from changes in the atmospheric 
distributions and concentrations of ozone and methane as a primary 
consequence of aircraft nitrogen oxide emissions, the direct effects 
(and indirect effects on clouds) from emitted aerosols and aerosol 
precursors, and the climate effects associated with contrails and 
cirrus cloud formation.
    Aviation contributes about two percent of the global human-related 
emissions of carbon dioxide. As a result of policies to reduce other 
human-related emissions, this percentage could increase in the future. 
The climate effects from aviation emissions of carbon dioxide are much 
better known than the effects from other emissions. This workshop 
agreed with prior assessments that the level of scientific 
understanding to estimate climate response due to aviation emissions 
other than carbon dioxide ranges from fair to very poor.
    The potential importance of aircraft nitrogen oxide emissions on 
the atmospheric concentrations of ozone is well recognized. Aviation 
perturbed ozone levels can also affect the amounts of methane, another 
important greenhouse gas. However, the workshop determined that 
important uncertainties remain in our understanding of these effects. 
The workshop recommended new detailed inter-comparisons of current 
models of atmospheric physics and chemistry relative to the existing 
database of measurements of key atmospheric gases and particles. Also, 
participants recommended expanding the analysis of the wealth of data 
already measured from aircraft and satellite platforms with a focus on 
the atmospheric regions perturbed by impacts of aviation emissions. In 
the longer-term, there is a need for new field campaigns to better 
understand the physical and chemical processes in these regions.
    The estimates of climate impacts due to contrail and contrail-
induced formation of high-altitude cirrus clouds are especially 
uncertain. Contrails form if ambient air along the flight track is 
colder and moister than a threshold based on known thermodynamic 
parameters that are not well characterized at cruise altitudes. Early 
contrail evolution depends, in poorly understood ways, on aircraft and 
engine emission parameters. In ice-supersaturated air masses, contrails 
can organize themselves in regional-scale clusters that add 
significantly to the natural high cloud cover and have the potential, 
albeit with large uncertainties, for a relatively large effect on 
climate. Factors controlling the climate effects of cirrus clouds and 
contrail-cirrus (e.g., ice crystal habit, vertical profiles of ice 
water content, effective radius) are poorly constrained by existing 
observations. The extent of global distribution of supersaturation at 
cruise altitudes has not been adequately verified to enable its 
reliable prediction.
    Workshop participants discussed many uncertainties and knowledge 
gaps related to aircraft emissions of aerosols, their role in plume 
evolution, interaction with the background atmosphere and the formation 
of high altitude cirrus clouds. The magnitude of the atmospheric impact 
depends on details of plume processing and on the relative ability of 
background aerosol particles to act as ice-forming nuclei. It was also 
noted that models do not adequately treat the radiative properties of 
cirrus, thus limiting their abilities to study contrail-cirrus cloud 
interactions. Large uncertainties also exist as to how properties of 
ambient aerosols are perturbed in the presence of jet engine emissions 
under various atmospheric conditions and aircraft configurations.
    The workshop recommended new carefully coordinated regional-scale 
measurement campaigns to measure the factors affecting the growth, 
decay, and trajectories of contrail ice particle populations, and to 
define the abundance and properties of ambient aerosols as well as 
gaseous aerosol precursor concentrations. Process studies that explore 
the role of emitted aerosol particles, and how volatile aerosols 
interact with each other and with background aerosols, are required to 
understand the effect of emitted aerosol particles on cloudiness. 
Laboratory measurements are also urgently needed to develop improved 
aerosol-related parameterizations of heterogeneous ice nucleation for 
use in atmospheric models.
    The Workshop also found that much better approaches are needed for 
comparing relative effects of all aviation emissions on climate, 
particularly to place these effects on a common scale for assessing the 
overall climate impact, and to quantify the potential trade-offs on the 
climate impact due to changes in aircraft technology, aircraft 
operations and various policy scenarios. For example, should aviation 
emphasize increased energy efficiency, thus reducing emissions of 
carbon dioxide, or policies to reduce formation of contrails and 
effects on cirrus clouds? There is no published study that utilizes the 
current understanding of the impact of aviation emissions on 
atmospheric composition to examine the possible choices, dependencies, 
and problems for evaluating aviation trade-offs. This is an important 
consideration for national and international policy--some in Europe are 
advocating action without adequate analysis--which could lead to bad 
unintended consequences.

Conclusions

    As a key conclusion, the workshop participants acknowledged an 
urgent need for aviation-focused research activities to address the 
uncertainties and gaps in the understanding of current and projected 
impacts of aviation on climate and to develop metrics to better 
characterize these impacts. This effort will entail coordination with 
existing and planned climate research programs within government 
agencies, and could be organized through expansion of such programs or 
by totally new activities. The workshop participants indicated that 
such efforts should include strong and continuing interactions among 
the science and aviation communities as well as among policy-makers to 
develop well-informed decisions. The next steps required include 
further ranking and prioritizing of identified research needs; creating 
a research roadmap with associated roles and responsibilities of 
various participating agencies and stakeholders; and identifying 
resources needed to implement the roadmap.
    The FAA has already taken some steps to make resources available--
there is funding allocated to these efforts in the FY08 President's 
Budget starting in FY09. However, one agency cannot do it alone--this 
should be a focus for the U.S. Climate Change Science Program. We need 
better science-based understanding of the impacts of aviation emissions 
on climate change. We need improved metrics, measurement techniques, 
and modeling capability to quantify and predict impacts and to 
understand inter-relationships of aviation environmental factors. This 
is not a ``science project''--the need is immediate. Decisions, with 
broad policy implications, such as the European Emissions Trading 
Scheme are being made without a firm understanding of the underlying 
science. We need scientific focus and resources in the U.S. to pursue 
aviation climate impact research--to put us in a position to make smart 
decisions for the NextGen aviation system and to allow us to shape the 
international debate within the International Civil Aviation 
Organization and other fora.

                    Biography for Donald J. Wuebbles

    Don Wuebbles is Executive Coordinator (Director) of the new School 
of Earth, Society, and Environment at the University of Illinois. He is 
also a Professor in the Department of Atmospheric Sciences as well as 
in the Department of Electrical and Computer Engineering. Dr. Wuebbles 
was Head of the Department of Atmospheric Sciences from 1994 until 2006 
before accepting the new position. He was also the first Director of 
the Environmental Council at the University of Illinois, from 1996 
until August 1999; as Director, he was responsible for oversight and 
development of all educational and research programs at the University 
of Illinois relating to the environment. Don earned his B.S. (1970) and 
M.S. (1972) degrees in Electrical Engineering from the University of 
Illinois. He received his Ph.D. in Atmospheric Sciences from the 
University of California at Davis in 1983. Don spent many years as a 
research scientist and group leader at the Lawrence Livermore National 
Laboratory before returning to the University of Illinois in 1994. He 
is the author of about 400 scientific articles, most of which relate to 
atmospheric chemistry and global climate change as affected by both 
human activities and natural phenomena. His research emphasizes the 
development and use of mathematical models of the atmosphere to study 
the chemical and physical processes that determine atmospheric 
structure, aimed primarily towards improving our understanding of the 
impacts that man-made and natural trace gases may be having on the 
Earth's climate and on tropospheric and stratospheric chemistry. He has 
been a lead author on various national and international assessments 
related to these issues, including chairing a recent international 
workshop on the potential impacts of aviation on climate.

    Chairman Udall. Thank you, Dr. Wuebbles.
    And now we turn to Mr. Alterman. The floor is yours for 
five minutes.

STATEMENT OF MR. STEPHEN A. ALTERMAN, PRESIDENT, CARGO AIRLINE 
ASSOCIATION; CHAIRMAN, ENVIRONMENT SUBCOMMITTEE, FAA RESEARCH, 
        ENGINEERING, AND DEVELOPMENT ADVISORY COMMITTEE

    Mr. Alterman. Thank you very much, Mr. Chairman and Members 
of the Committee.
    My name is Steve Alterman, and I am the President of the 
Cargo Airline Association, the association that represents 
those carriers that fly only freight. I also have the honor as 
serving as the Chairman of the Environmental Subcommittee of 
the FAA's REDAC Committee. Thanks for the opportunity to be 
here today.
    Initially, I think it is important for everyone in Congress 
to understand the critical importance of research and 
development to the industry as we move toward a new paradigm in 
aerospace management. As a practical matter, today's R&D forms 
the basis for tomorrow's operational products, and any delay in 
this element of work has significant negative long-term 
effects. All too often, this component of the modernization 
equation is overlooked in the contentious debate over 
financing. It should not be.
    Over the past decade, our industry segment has worked 
closely with the FAA and various portions of the research and 
development portfolio, from the development of Automatic 
Dependent Surveillance Broadcast, it is a terrible acronym, but 
it is a wonderful product, it is called ADSB, to the balancing 
of environmental sensitivity to--with the needs of the 
traveling and shipping public. If we were to learn one thing 
from these efforts, it is that there must be a firm commitment 
from both industry and government to the necessary research and 
the transition from the research mode to one of implementation. 
I couldn't agree with John Hansman more about the challenge of 
implementing once we get the research done. I think it is a key 
point.
    Put somewhat differently, the FAA research and development 
effort must be a true partnership with each participant being 
willing to support the other. From an industry perspective, we 
need to do not only the scientific elements of the project, but 
we need to understand both the cost and benefits to the 
industry and the government as we do this.
    I am not going to go into the NASA funding debate other 
than to tell you that industry has as much concern over it as 
Congress seems to have and the rest of the panelists have. we 
think it is very unfortunate, the reprioritization of their 
efforts, and we need to figure out--either get that back on 
track or work around so that we can get the necessary research 
done.
    I would like to concentrate this morning, in my time left, 
on three separate issues. One is the--our involvement with the 
ADSB technology that the FAA has identified as the building 
block of future surveillance in the NextGen system. We started 
working on this about 11 years ago, trying to develop a new 
collision-avoidance system to replace TCAS. We were ahead of 
our time, and haven't succeeded in that yet, but we realized, 
in working with the technology, that it had much broader 
application. And we think that providing better and more timely 
information to both cockpit crews and controllers, we can move 
forward with the modernization effort. It is an essential 
building block. We work closely with the FAA Safe Flight 21 
office in this effort, both with surface management systems to 
try to work on the safety on the ground and potentially 
airborne applications, using the ADSB technologies. Our 
members, Fed-Ex and UPS have been involved at both Memphis and 
Louisville with trials and working together with the FAA.
    In addition, a companion project in the State of Alaska was 
demonstrating the benefits of ADSB technology to the general 
aviation community. And I think all of us in the industry, and 
I think I can speak for all of us, absolutely support those 
efforts.
    The FAA has recognized this by actually making that 
announcement and forming a program office within the agency to 
implement ADSB.
    What have we learned in this process? Well, first, we 
wanted to--things take too long. I think that Mr. Hansman is 
correct. I hate to keep agreeing with him, but things take too 
long. To a large extent, delays are inherent in any process 
that requires the involvement of a massive bureaucracy, but 
there must be ways to accelerate R&D efforts that are for the 
potential for significant improvements.
    Second, you know, research and development may, in fact, be 
the easy part. As a colleague from Federal Express noted early 
in the project, ``This ain't no science project.'' Our industry 
has invested over $100 million of our own money in the ADSB 
technology effort alone. We need to see it implemented, not 
just studied.
    The second area of research in which the cargo industry has 
participated involves the development of new operational 
procedures. I think this is important, because, as we talk 
about the complicated technology challenges of the future, 
there are certain low-tech cousins of those technologies that 
could help in the near-term. Operational procedures is one of 
those, and we have been working closely with the FAA on a 
program called Continuous Descent Arrivals, with UPS being the 
demonstrating company, which has showed that we get not only 
operational benefits: less fuel burn, environmental benefits, 
and safety benefits, and we are in the process now of figuring 
out how to take what we learn in Louisville and migrate that to 
the rest of the country.
    Finally, perhaps the most aggressive area of FAA research 
and development is in the environmental area. We absolutely 
support what is being done there, and I know my time is up, but 
I will just simply say that I know you are studying the fiscal 
year 2008 budget. Those funds are necessary, but they are 
necessary, in large part, as a basis for the efforts that are 
contained in the FAA's reauthorization proposal. As an 
industry, we absolutely support the section 600 provisions in 
those--in that bill that would do more environmental research 
and provide environmental demonstration programs and research 
programs.
    That concludes my oral statement. I would be happy to 
answer any questions.
    Thank you.
    [The prepared statement of Mr. Alterman follows:]

               Prepared Statement of Stephen A. Alterman

    Good morning. My name is Steve Alterman and I am the President of 
the Cargo Airline Association, the nationwide organization representing 
the interests of the all-cargo air carrier industry, as well as other 
businesses and entities with a stake in the all-cargo supply chain. (A 
list of current members is attached). I also have the honor of serving 
as the current Chairman of the Environmental Subcommittee of the FAA's 
Research, Engineering and Development Advisory Committee (REDAC). Thank 
you for the opportunity today to present some industry thoughts on FAA 
R&D efforts.
    Initially, I think it is important for Congress to understand the 
critical importance of research and development as we move toward a new 
paradigm in airspace management. As a practical matter, today's R&D 
forms the basis for tomorrow's operational products, and any delay in 
this element of work has significant negative long-term effects. All 
too often, this component of the modernization equation is overlooked 
in the contentious debate over future system funding. It should not be.
    Over the past decade, our industry segment has worked closely with 
the FAA on various portions of the research and development portfolio, 
from the development of Automatic Dependent Surveillance-Broadcast 
(ADS-B) capabilities to the balancing of environmental sensitivity with 
the needs of the traveling and shipping public. If we have learned one 
thing from these efforts, it is that there must be a firm commitment 
from both industry and government to both the necessary research and 
the transition from the research mode to one of implementation. If 
either side breaks down, useful projects may be doomed.
    Put somewhat differently, the FAA research and development effort 
must be a true partnership--with each participant willing to support 
the other. From the industry perspective, the research should include, 
not only the scientific elements of the project, but also an analysis 
of the benefits and costs to both government and industry.
    Another preliminary point worth noting is that recent ``re-
prioritizing'' of NASA research to concentrate on space missions, and 
downgrade aeronautics activities, has seriously affected the FAA 
research effort. In order to compensate for the decrease in NASA 
activity, it is vitally important that the FAA R&D budget be increased 
to permit needed research to be undertaken in a timely fashion.\1\
---------------------------------------------------------------------------
    \1\ In the alternative, NASA aeronautics research funding should be 
restored to former levels, with specific Congressional guidance on how 
the money should be spent.
---------------------------------------------------------------------------
    Moving to more specific aspects of the FAA R&D program, I would 
like to concentrate on three separate areas of activity, all of which 
contain valuable lessons.

        <bullet>  The Cargo Airline Association's involvement with ADS-
        B technology began over 11 years ago when member companies were 
        searching for a collision avoidance alternative to the radar-
        based TCAS system. While we were not successful in developing 
        this new capability (I think we were ahead of our time), we 
        soon realized that the technology held promise for projects 
        over and above airborne collision avoidance. Providing better 
        and more timely information to both cockpit crews and 
        controllers, both in the air and on the ground, appeared to be 
        a realistic goal. Working with the newly-formed FAA Safe Flight 
        21 Office, all-cargo airlines developed both new Surface 
        Management Systems and potential airborne applications using 
        ADS-B technology, with test-beds established both in 
        Louisville, Kentucky and Memphis, Tennessee. In addition, a 
        companion project in the State of Alaska, Project Capstone, 
        demonstrated the operational and safety benefits of ADS-B 
        technology to the General Aviation community.

           Over the years, it became obvious to all those involved in 
        these research and development efforts that ADS-B would have a 
        central place in any modernized air traffic system. And the FAA 
        agreed. In December 2005, the agency announced that ADS-B would 
        form the basis for future system surveillance. To facilitate 
        this transition, the FAA also announced that a new ADS-B 
        Program Office would be formed to provide the implementation 
        vehicle. Today, this Office is in the process of laying the 
        groundwork for the purchasing and installing the ground 
        stations necessary for initial ADS-B applications.

           While this progress is certainly encouraging, we cannot stop 
        there. Plans must be made for future improvements involving 
        air-to-air ADS-B applications--applications that will provide 
        significant benefits to commercial aviation users. The research 
        necessary for such improvements must be done now if we expect 
        implementation in a timely manner. The House of Representatives 
        recognized this need in its proposed Fiscal Year 2007 
        Appropriations package wherein it added $20 million to the 
        Administration's $80 million budget request for ADS-B 
        development and specified that the extra $20 million be spent 
        on air-to-air application development.\2\
---------------------------------------------------------------------------
    \2\ These funds were never actually appropriated since no 
Transportation Budget was ever enacted for FY 2007 and we are now 
operating under a Continuing Resolution.

           What have learned in the course of this process? First, 
        things take too long. To a large extent, delays are inherent in 
        any process that requires the involvement of a massive 
        bureaucracy, but there should be ways to accelerate R&D efforts 
        that have the potential for significant airspace improvements. 
        Second, research and development may in fact be the easy part. 
        As a colleague from Federal Express noted early in the ADS-B 
        development process, ``This ain't no science project!'' Indeed, 
        we must have the resources and leadership to transform the 
        research into products for the National Airspace System. We 
        cannot let either industry or government inertia overwhelm 
---------------------------------------------------------------------------
        these efforts.

        <bullet>  The second area of research in which the all-cargo 
        industry has participated involves the development of new 
        operational procedures. These procedures are the low-tech 
        cousins of technological improvements and possess the promise 
        to provide near-term benefits while longer-term solutions to 
        problems are being developed. Specifically, one of our members, 
        UPS Airlines, has been working cooperatively with the FAA on 
        the concept of Continuous Descent Arrivals (CDAs), an 
        operational procedure that provides more efficient vertical 
        profiles in the landing process. To test the viability of such 
        arrivals, nighttime operations at Louisville were selected 
        since UPS provides the overwhelming majority of operations. The 
        results have been encouraging, with the airline experiencing 
        more efficient operations and significant fuel savings and the 
        public enjoying the measurable environmental benefits of less 
        noise and aircraft engine emissions. The challenge now is to 
        migrate the Louisville experience into ``mixed environments'' 
        where many different airlines operate in high density airspace. 
        These tests are currently in the planning stages. Of course, 
        after all the research is completed, and all the necessary data 
        collected, the ultimate goal will be to incorporate these 
        procedures into the national airspace system. Again, this 
        effort will require both industry and government involvement 
        and cooperation. The major challenge for the airline community 
        is to adequately quantify and understand both the costs and 
        benefits of the modified flight procedures and then to work 
        cooperatively with the agency and controller communities to 
        ensure a smooth, safe transition to the new flight 
        procedures.\3\
---------------------------------------------------------------------------
    \3\ In order to give the Subcommittee more detail on this 
initiative, attached hereto is the testimony of Captain Karen Lee of 
UPS Airlines before the Senate Aviation Operations, Safety and Security 
Subcommittee on March 22, 2007.

        <bullet>  Perhaps the most aggressive area of FAA research and 
        development is in the area of environmental issues confronting 
        the industry and the Nation. To put this challenge in 
        perspective, the FAA, in the context of the ongoing JPDO 
        activity, has established a goal of reducing noise and 
        emissions in absolute terms, by the year 2025, notwithstanding 
        an expected major leap in air traffic. This ambitious program 
        depends on a robust research and development effort and we are 
        encouraged by, and support, the initiatives set forth in 
        sections 601 et seq. of the FAA's proposed Next Generation Air 
        Transportation System Financing Reform Act of 2007. These 
        proposals include environmental mitigation demonstration pilot 
        programs (section 604); airport grant eligibility for 
        assessment of advanced flight procedures to mitigate noise 
        (section 605); and the establishment of a research consortium 
        within the existing PARTNER Center of Excellence to address 
---------------------------------------------------------------------------
        advanced engine and airframe technology.

           Finally, with respect to the specific issue of how to 
        address the issue of aviation's impact on climate change, we 
        respectfully suggest that R&D challenges be funneled through 
        the existing PARTNER Center of Excellence. This university-
        based consortium is the best forum for analyzing the 
        complicated issues inherent in any discussion of climate change 
        and aviation's contribution to it.

    In summary, it is clear to the all-cargo industry that a robust FAA 
research and development program is absolutely essential if we are to 
meet the future goals of modernizing the airspace system and providing 
the capacity needed to serve passengers and shippers worldwide. We 
believe that the agency has established a strong track record in this 
area and we are committed to working with all parties to this process 
in the coming years. If there is any word of caution, it is that we 
cannot let the bureaucracy delay the implementation of those projects 
that prove, in the research and development phase, to be beneficial.
    Thank you very much.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
              Hearing Before the Senate Commerce Committee
                        Subcommittee on Aviation
          Federal Aviation Administration (FAA) Modernization
                             March 22, 2007
                         Testimony of Karen Lee
                  Director of Operations, UPS Airlines

    Chairman Rockefeller, Senator Lott and Members of the Committee, my 
name is Karen Lee and I am Director of Operations at UPS Airlines. 
Thank you for the opportunity to testify this morning on air traffic 
modernization and what we at UPS have been doing over the last 10 years 
with Automatic Dependent Surveillance-Broadcast (ADS-B). We believe 
that modernization of our current aviation system should be the major 
priority in the FAA Reauthorization this year. Our efforts on ADS-B 
demonstrate the benefits that modernization will provide.
    UPS has been committed to the development and implementation of 
ADS-B systems and applications for over 10 years. ADS-B is a satellite-
based surveillance technology that allows each aircraft to broadcast 
information about itself such as position, speed and altitude. It does 
this continuously, as often as once per second, and this surveillance 
information is available to any user equipped to receive and display 
it.
    UPS, along with the Cargo Airline Association, first became 
involved with ADS-B in 1996 as a potential means of meeting collision 
avoidance requirements. Although we ultimately installed T-CAS in order 
to meet those requirements, our early work with ADS-B demonstrated many 
potential benefits, such as improved efficiency and safety, as well as 
environmental benefits. As a result, UPS continued its work on the 
technology.
    Use of ADS-B technology creates a new level of safety and 
redundancy in our airspace system since pilots will now be able to see 
the traffic around them and controllers will have surveillance data 
that is much more accurate and timely than they have today. There are 
many applications that are enabled when aircraft are equipped to see 
other aircraft. Many of those applications create opportunities to make 
aircraft operations safer and more efficient while reducing noise and 
emissions.
    ADS-B is now recognized as the foundation of the Next Generation 
Air Traffic System. Administrator Blakey has been a strong proponent of 
ADS-B and has been very supportive of the efforts we have undertaken at 
our international air hub in Louisville, Kentucky.
    There are two basic scenarios in which ADS-B surveillance can be 
very beneficial. The first is in geographic areas that do not have 
radar surveillance. ADS-B surveillance information can be provided from 
the aircraft to air traffic controllers through inexpensive ground 
receiving stations and shown on a display that looks exactly like a 
radar display. Controllers use the ADS-B surveillance data exactly the 
same way they would use radar information; it just comes to them 
directly from the aircraft.
    You are probably familiar with the FAA Capstone project in Alaska 
where more than 250 light aircraft are equipped to broadcast ADS-B 
position information. Using ADS-B, Alaska has reduced its accident rate 
by 47 percent and has done so in areas that radar could not be 
installed because of rugged terrain.
    The second scenario is in high density airspace. Let's use 
Louisville as an example. During the UPS rush hour, from 11:00 at night 
until 1:30 in the morning, we can land 47-52 aircraft per hour. We 
should be able to land 60-62 aircraft per hour in most weather 
conditions. Our inability to do so represents a loss of capacity and 
efficiency that costs us millions of dollars every year.
    Our traffic arrives somewhat randomly and the flow and sequence of 
arriving aircraft is unpredictable. The enroute center directs our 
aircraft into the terminal area as they arrive from all directions and 
the approach controllers then must organize and sequence the aircraft 
to line up for final approach. Our flights end up ``driving'' around at 
low, highly inefficient altitudes while waiting for their turn for 
landing--sometimes flying 60 or 70 miles to travel the last 40 miles of 
flight.
    In addition, due to high controller workload and lack of shared 
traffic information with our pilots, our flights arrive at the runways 
with very uneven spacing. If you were to stand at the end of the runway 
and measure the time between landing aircraft, you would find a high 
level of variation--90 seconds, then 105 seconds, then 80 seconds, then 
180 seconds and so on. What we really need is 95 seconds, 95 seconds, 
95 seconds (or the appropriate time interval for the night's 
conditions--it is variable). Anything more than that interval is loss 
of capacity. And because our aircraft arrive somewhat randomly and 
unpredictably and all under radar vectors, they are scattered over a 
wide area as they enter the terminal area--making the controller's job 
that much more difficult to get us organized and lined up.
    This is very similar to every busy airport in the world. Some are 
worse than others, but all capacity and efficiency losses are driven by 
the same factors: less than perfect surveillance information, each 
aircraft handled individually by a controller to be sequenced, each 
aircraft spaced and vectored to final approach and pilots who are blind 
to traffic around them. This results in wide variations in spacing on 
final approach and much higher fuel burns.
    We are on the verge of a major milestone in the effort to become 
more efficient and to optimize the airspace capacity available to us. 
There is a wonderful convergence of emerging technologies and 
procedures that have created the dawn of a new era in aviation--indeed 
created the dawn of the next generation air transportation system.
    In July we will fly the world's first NextGen RNAV Continuous 
Descent Arrival procedures using an ADS-B application called merging 
and spacing. This will mark the first time that pilots will be given 
responsibility for spacing their aircraft, at very accurate time 
intervals, using ADS-B surveillance information in the cockpit from 
cruise altitude all the way to the runway. The goal is to accurately, 
consistently and precisely deliver our aircraft to the end of the 
runways, in the most efficient way possible, in almost all weather 
conditions, night after night. When we accomplish this, we anticipate 
we will save over 800,000 gallons of fuel annually, reduce our noise 
footprint by 30 percent and our emissions by 34 percent below 3000 
feet, and increase the capacity of our airport by 15-20 percent or 
more.
    We are confident of our success for several reasons. ADS-B 
technology is maturing rapidly. In fact, UPS has 107 Boeing 757 and 767 
aircraft equipped with a first generation system and has accumulated 
thousands of hours of experience using the simple, but powerful 
application of Enhanced See and Avoid. We have seen significant 
improvements in our operations at Louisville as a result of this 
implementation and have gathered enough experience to validate our next 
implementation this year.
    Our air traffic controllers are willing partners in our ADS-B work 
and have enjoyed benefits by working with us. We have a wide base of 
industry support and have worked closely with FAA and others throughout 
this project. Our pilots have enjoyed the early benefits of enhanced 
situational awareness and traffic displays in the cockpit for several 
years now and are actively involved in the preparation for the next 
steps in 2007. And, as I have mentioned, Administrator Blakey and the 
FAA are moving forward with ADS-B plans in the United States and are a 
strong ally in this effort.
    Although aircraft equipage is always seen as an obstacle to 
progress, we believe that the architecture we are implementing is very 
practical. We are using one set of hardware to house several different 
applications. The electronic flight bag provided by Boeing will allow 
us to provide electronic charts and manuals for our pilots, electronic 
logbooks for maintenance, graphic satellite weather for in-flight use, 
and a display for CPDLC for data link communications with ATC in the 
future. The same display used for all of those applications will also 
be used for ADS-B applications, the first of which is the Continuous 
Descent Arrivals using merging and spacing.
    It will also house a very important safety enhancement: a moving 
surface map with traffic for ground operations. Studies show that the 
threat of most runway incursions and potential ground collisions will 
be solved by using the surface map with traffic.
    We all have a major challenge ahead in transforming and modernizing 
the best aviation system in the world. We must do this in order to 
provide the capacity needed to accommodate future growth, to provide an 
additional margin of safety and to achieve the environmental 
improvement that is required. We believe that ADS-B will be the 
foundation for the modernized system.
    Thank you and I am pleased to answer any questions you may have.

                   Biography for Stephen A. Alterman

CURRENT POSITIONS

President, Cargo Airline Association, a nationwide (U.S.) trade 
        organization that promotes the use of air freight and 
        represents the United States all-cargo industry before 
        Congress, State and local governments and the Courts.

Senior Partner, Meyers & Alterman, a Washington, D.C. law firm 
        specializing in air transportation law.

FORMER POSITIONS

Chief of the Legal Division, Bureau of Enforcement, U.S. Civil 
        Aeronautics Board, and, before that, Trial Attorney for the 
        Bureau of Enforcement (1968-1975).

EDUCATION

    Educational experience includes a law degree from Boston University 
School of Law (1968) and an undergraduate degree in Political Science 
from Brown University, Providence, Rhode Island (1965).
    Other past and present positions include:

        <bullet>  Chairman, Environment Subcommittee, FAA Research, 
        Engineering and Development Advisory Committee, 2003-Present.

        <bullet>  Member, Steering Group, Environmental Integrated 
        Product Team (JPDO), 2005-Present.

        <bullet>  Member, Aviation Security Advisory Committee, 1996-
        Present.

        <bullet>  Member, Federal Advisory Panel on Land Use Planning, 
        1993-1995.

        <bullet>  Member, FAA Aviation Rule-making Advisory Committee, 
        1991-Present.

        <bullet>  Member, Federal Airport Noise Working Group, 1987-
        1991.

        <bullet>  Member, Federal Advisory Committee on Fuel Savings, 
        1991.

        <bullet>  Member, Federal Advisory Committee on Passenger 
        Facility Charges, 1990.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Chairman Udall. Thank you, Mr. Alterman.
    Let me thank the panel, again, for a very informative and 
very succinct testimony.
    At this point, we will open the first round of questions, 
and I will recognize myself for five minutes. And I want to 
direct my first question to Ms. Cox, but to notify the three 
other panel members I would like to think about your response 
as well, and then we will move down the line.

              Suggested Additional R&D Funding Priorities

    I know, as an FAA employee, you, of course, support the 
President's budget request, but I would like to know what your 
top-three R&D funding priorities would be if Congress were to 
provide additional funding for your R&D programs and why you 
would make those your three additional priorities.
    Ms. Cox. Yeah. I think that we are in an unusual situation 
this year. We are, first, starting to take a serious look at 
the research and development that will be required to support 
the NextGen system, so obviously, the support of the NextGen 
system is a priority. And the reauthorization has afforded us 
the opportunity this year to do an in-depth study of the 
requirements that we believe we need to make this happen over 
the next five years so that the fiscal year 2008 budget that we 
presented reflects serious increase in the RE&D budget and 
increases in overall NextGen support through all of the 
appropriations that represent R&D.
    So I think you see there, in the budget, some of our key 
priorities.
    As the rest of the panel members have indicated, 
environment is a key issue as we move forward, and I think that 
our budget request in the fiscal year 2008 budget and for the 
years beyond certainly reflect that indication.
    We need to focus on our air traffic system and issues that 
will help us to increase capacity by reducing separation in the 
systems.
    And we need to look at overall effects of human factors. As 
I mentioned in my oral testimony, the way people behave in the 
system of tomorrow will be very different from today, and we 
can't just put that in place immediately. We have to do a lot 
of studying about how we do that most appropriately as we look 
at the shifts in responsibilities.
    Chairman Udall. Thanks, Ms. Cox.
    Dr. Hansman.
    Dr. Hansman. Yeah, I have three. The first is approaches to 
accelerating the operational approval of new technologies and 
procedures. We really don't know how to do that right, and we 
need ways to do the safety analysis. And we have to make that 
more efficient.
    The second is the environmental concerns, which are 
emerging and becoming more significant, both on global warming 
and also the contrail problem.
    And then the third is pushing the transition in the system 
and the NextGen, and as Ms. Cox mentioned, I think human 
factors, because humans will be a ``part of the system'' and 
will be very important here.
    Chairman Udall. Thank you.
    Dr. Wuebbles.
    Dr. Wuebbles. As I said in my testimony, I have expressed 
an urgency for support to look at the effects of aviation on 
climate. We need to prepare ourselves, particularly, I think, 
over the next several years for the next major international 
look at policy that will happen in 2009. And we don't really 
want to go into that kind of situation without being much 
better aware of where we stand in terms of our understanding of 
effects while others are trying to promote various 
international regulations.
    Chairman Udall. Mr. Alterman.
    Mr. Alterman. Yes, I agree with everybody. I think they are 
right on. And from a purely parochial standpoint, we believe 
that we should continue funding the ADSB program and accelerate 
that funding. Congress, for fiscal year 2007--the House of 
Representatives for fiscal year 2007 recommended $100 million 
for ADSB development, which was $20 million more than the 
President's budget, with the extra $20 million going to 
research and development for future air-to-air applications. 
The Senate, in its bill, had $80 million. Of course, none of 
those were actually implemented, because we are operating under 
a CR for 2007, but we urge you to continue funding the ADSB 
development program.
    As a practical matter, it is a two-stage effort. The FAA is 
doing a very good job now on stage one, which is putting ground 
stations in. We need to continue the research on future air-to-
air applications. And I can't stress enough the need for 
environmental funding for funding environmental research. It is 
a major issue, and I think if there is one thing I can leave 
with you, the industry thinks it is an issue, too. It is not 
something that is simply in the scientific community or with 
the agency. We feel that we have an obligation, as we go 
forward, to enhance the environment to the extent possible. We 
need to do that, because we think environmental constraints 
will actually beat capacity constraints in limiting our growth.
    With respect to the fiscal year 2008 budget, the money 
there, I think, from our perspective is fine. You will note 
that the proposal from the agency for fiscal year 2009 and 
forward has a major jump in environmental funding, and we 
support that.
    Chairman Udall. Thank you, Mr. Alterman. It is obvious the 
industry sees the environmental concerns that have been 
expressed and have been surfaced as an opportunity and the 
actions you are taking in the form of enlightened self-
interest, so thank the leadership in the industry, if you 
would.
    At this point, I would like to recognize the Ranking 
Member, my good friend from California, Mr. Calvert, for five 
minutes.
    Mr. Calvert. Thank you, Mr. Chairman.
    Ms. Cox, you pointed out your top-three priorities. I want 
to just, for the record, point out, I came here 15 years ago, 
and I remember we were talking about reviewing the air traffic 
control and I don't know if we are that much further along than 
we were 15 years ago, but I just thought I would point that 
out. But hopefully, we can make a lot more progress in the next 
few years since we, obviously, on the record, have increasing 
air traffic, and changing air traffic.

      Impact of Administration's Financing Reform Package on FAA 
                                 Budget

    Part of, as I understand it, your R&D budget is going to be 
if Congress enacts the Administration's proposed financing 
reform package, including ticket taxes and aviation fuel taxes. 
How important is that in the new authorization for you to fund 
your R&D efforts?
    Ms. Cox. Obviously, a stable and predictable funding stream 
is important for our R&D efforts, and we believe that the 
Administration's plan will provide that. This is a particularly 
unique situation that we have with NextGen in that, in the 
past, we have looked at programs as standing as individual 
projects that we would put forward to support the modernization 
of a system. Today, the individual projects that we are putting 
forth, such as ADSB, such as data communications, our wake work 
that supports reduced separation are all inextricably linked 
together, so what we have is an integrated system of 
capabilities, a portfolio, if you will, of capabilities that is 
required to produce the desired outcome. And that, in 
particular, requires a stable funding stream, and not one that 
funds one program but not the other, but that--so that we are 
really hopeful that we can get our programs funded as a 
portfolio of projects, and that is a little different from what 
we have expected in the past.
    Mr. Calvert. So you see this as a dedicated fund for your 
R&D budget, and the appropriators are going to agree to that, 
that that is not going to be made part of the general fund and 
be appropriated from year to year?
    Ms. Cox. Well, the 2008 budget, and past budgets, have been 
a split, I believe, between the general fund and the airports 
and the airways trust fund. And for the RE&D budget, the 2008 
budget, requests the same thing.

         Status of Research Efforts in Specific Important Areas

    Mr. Calvert. Next, for Dr. Hansman, you state that some of 
the important areas, research efforts are below critical mass 
and others are not supported at all. Can you elaborate on that? 
What areas are we being underserved in?
    Dr. Hansman. These are comments that have come out of some 
of the subcommittee--REDAC Subcommittee reviews, so for 
example, in the safety area, because of the importance of doing 
safety management system, which is a data-based approach to 
addressing safety concerns, the amount of funds that were 
available to do safety research prevented funding of other 
things, such as work on aircraft icing, some worked on fire 
protection, terminal area safety. So there is a trade-off, and 
some things are being uncovered. And then the other areas are 
things like safety-critical software. Software is becoming a 
more urgent part of the system. So we are sort of below 
intellectual critical mass in the agency to really move forward 
and anticipate the problems of the future.
    Mr. Calvert. Would you agree with that, Ms. Cox, that--Dr. 
Hansman's assessment of these gaps?
    Ms. Cox. You know, I think that we have gaps that we need 
to address, and particularly in getting to NextGen. One of the 
things that we need to do in order to--I believe that Mr. 
Alterman reflected the fact that we move too slowly. In order 
to speed up the way that we go forward in implementing the 
results of our technology is for the implementing organization, 
and in the case of the NAS, it is the FAA, for the implementing 
organization to become involved in these efforts at a lower 
technology-readiness level, perhaps, than we have in the past 
so that we have an in-depth understanding of the capabilities 
and a better understanding of how to implement the system.
    We have shown great success as we take over NASA 
technologies at the stage where we begin the technology 
maturation and in moving those forward. In cases where we 
haven't stepped in as early with NASA and co-worked with them, 
we have not done as well. So I think in the future, and the 
2008 budget request reflects this desire to become involved at 
an earlier level in most of these technology areas so that we 
can advance the implementation.
    Mr. Calvert. I thank you. I will just catch on the next 
round.
    Chairman Udall. I thank the gentleman from California.
    It is now my privilege to yield five minutes to the 
gentleman from New Jersey. I mentioned Mr. Rothman earlier. He 
comes from a district in New Jersey where the dependence on the 
modern air traffic system is important, but he also has a wide 
range in constituency that is concerned about new generation 
engines, noise reduction.
    And Mr. Rothman, it is great to have you as a Member of the 
Subcommittee, and you now have five minutes to ask questions of 
the panel.
    Mr. Rothman. Thank you, Mr. Chairman. Thank you for that 
very kind introduction.
    I think the FAA is familiar with me, not everyone, perhaps, 
but I have had the great privilege of representing the 9th 
Congressional district in New Jersey. Now I am in my 11th year, 
and we have an airport in our district called Teterboro 
Airport. And we have had some issues over the years.
    I thank each and every one of you for your service and for 
your scholarship and all your years devoted to these matters.
    I have got a whole lot of questions. I will probably get to 
them in the second or third round, but let me start with a 
couple of points, which is sometimes it seems to me that those 
involved in the airline industry or in the FAA haven't 
addressed this fundamental issue. Let us assume that we have 
the science and technology that would allow planes to fly in 
our skies perfectly safely without any emissions or any noise, 
and they could fly wing-to-wing, thus blotting out the sun. Is 
that the goal here? Or is it something different, some balance 
between a quality of life that regards the open sky, or some 
parts of it open and the sun as things to be pleasant to look 
at now and then?
    That is one issue. Have we thought about that? Or are we 
just racing down this track of pure science and technology 
without figuring out, you know, reducing it out to its absurd 
or its extreme? Do we want the Jetsons? Perhaps some of you 
remember the image in the Jetsons. I don't. I don't think my 
constituents want it. I don't think most Americans want it. But 
that is my view. But I am going to represent that view strongly 
until someone persuades me that it is unreasonable.

                        Noise Reduction Funding

    I do--I did note, with great interest, and everyone is 
addressing the environmental issues. And start with Ms. Cox. 
The focus of the environment and energy research program is 
making aviation quieter, cleaner, and more energy-efficient. 
I--that is great to hear. And I was just curious. I noted that, 
if I am reading the budget correctly, $15.4 million of the 
budget is being spent on the environment and energy. That is 
about 11 or 12 percent of the budget. And of the $15.4 million 
going to the environment and energy, how much, if you know, is 
just going towards noise mitigation, noise reduction?
    Ms. Cox. I am not the expert to break out the split versus 
emissions versus noise reduction. I know that our funding 
addresses both. And in fact, it is a little bit more in 2008 
than $15.4 million. In 2008, we are also requesting that the 
airports cooperative research program add a third area to 
address. They now address safety and capacity. We are adding 
environment to that and requesting an additional $3 million in 
that program to work on the environment, on issues such as 
emissions and noise reduction. And I will be happy to get back 
to you with that breakout.
    Mr. Rothman. Thank you. I appreciate that.
    Can I just ask the panel my general little question?
    Dr. Hansman. Yeah, I would say two things. First, actually, 
on the mitigation, I believe you were just talking the research 
part of mitigation. There is also a significant amount of money 
that is spent on sound, you know, insulation mitigation. That 
is on the order of about $300 million a year, I believe.
    Mr. Rothman. Yeah. Unless they are going to do the houses 
as well as----
    Dr. Hansman. Yeah.
    Mr. Rothman.--the schools----
    Dr. Hansman. Yeah.
    Mr. Rothman.--you know, waking up the residents at 5:00 in 
the morning, it----
    Dr. Hansman. So I--but I want to address the first comment 
that you made, which is what is the appropriate balance of air 
transportation. We thought about this a lot. The U.S. economy--
and our quality of life actually presumes air transportation, 
so you have to think about this from the overall context. So it 
was actually interesting to me, after September 11, when the 
traffic died in the system and people stopped flying, it turns 
out that the first people to start flying were not the business 
travelers. It turns out that they were people on personal 
travel, because our society in the United States has 
distributed in a way that we have spread out. So when your 
grandmother or your mother is in Florida and sick, you presume 
you can get on an airplane and go to Florida.

                      Economic Effects of Capacity

    Mr. Rothman. My question is: at what point do we say the 
theater is filled, it is sold out, you can't stand in the 
aisles. The restaurant you want to go to is sold out. You will 
have to come back another day. We don't allow you to eat in the 
aisle.
    Dr. Hansman. So here is what happens with that. So when 
capacity--when you get local constraints on capacity, what 
happens is it will become expensive and difficult to travel to 
that location. And you know in New Jersey that this happens. 
Then what will happen is economic activity in people's where 
they will go will move to other locations. So if you think 
about it, it becomes a dynamic on sort of competitive economic 
regional economics.
    Mr. Rothman. I note that my time is up, but if you are 
successful in your technological efforts, it may be really 
cheap for a very long time to fly, and the sky will be nearly 
completely blotted out before it gets too expensive. So I don't 
want to gamble on the market. That is why they invented the 
government to look into these things to regulate----
    Dr. Hansman. And we have a lot of sky.
    Mr. Rothman. Yeah.
    Chairman Udall. I thank the gentleman from New Jersey. I am 
going to have to step out temporarily. I am going to ask Mr. 
Rothman to assume the chairmanship, but before I do that, I 
wanted to recognize the gentleman from California, who, on the 
heels of Vice President Gore's presentation yesterday on 
climate change, I am sure has some interesting things to say 
today.
    And the gentleman from California is recognized for five 
minutes.
    Mr. Rohrabacher. Well, thank you, Mr. Chairman.
    And with all respect to Mr. Rothman, I do think there is 
still the friendly skies to--as United Airlines has described 
them, and will be for a long time.
    My father was a pilot for 23 years, and in the Marine Corps 
and later worked flying Tigers Airline. I think the airline 
industry is a commendable and very responsible part of our 
society. When you talk about the pursuit of happiness as being 
an important right of the American people, I think the airline 
industry has played a significant part in providing people an 
avenue to pursue happiness, which of course is an important 
thing for a free society. It can never be underestimated.

              Airport and Airline Impacts on Human Health

    A couple questions here. Dr. Wuebbles, I am sorry that our 
Chairman had to leave for this, you mentioned about the studies 
that you were doing on how the pollution level from airlines, 
contrails, et cetera, affect the environment. How much 
percentage of money are we spending here in terms of--as 
compared to determining the affect of airlines on the health of 
human beings? For example, people who live near airports, of 
course, as planes are coming in, I am sure there is a pollution 
factor there as well, is there not?
    Dr. Wuebbles. There certainly is. Let me look at your 
question. The--we can essentially say, in terms of effects of 
aviation on climate, analysis that are going on right now, as 
far as I know, that is--the amount of funding is essentially 
zero. There is none in FAA. There is none in NASA or at other 
agencies that I know of. So----
    Mr. Rohrabacher. Well, they had to pay for that study that 
you were talking about. I mean, everybody got together and went 
to great----
    Dr. Wuebbles. The only----
    Mr. Rohrabacher.--events and restaurants, I am sure, and--
--
    Dr. Wuebbles. We met outside the Boston Airport at a hotel. 
Everybody flew in. We have--we were not provided--we--the only 
thing that was provided was some expenses for travel. So that 
was it. Everybody donated their time, otherwise. So, you know, 
if you want to say, you know, it is that little amount, it is 
basically what we are spending in the United States right now. 
And we can contrast that with--to programs in Europe where they 
are spending a fairly significant amount on research to look at 
some of these issues.
    I am not really aware of how much money we are spending in 
terms of looking at air quality from airports. I know that 
there was some money in the FAA budget, I just don't know the 
amount.
    Mr. Rohrabacher. Well, I know people have studied noise, 
which noise is a major factor, and I take it from what you have 
said, we have made some progress in that in the last 20 years. 
But the actual pollution that comes out of an airplane when it 
is landing and that effect on the health of the people who live 
near that airport I think should be something that is at least 
as important to us as whether or not traveling at high 
altitudes is going to affect the climate of the Earth.
    Dr. Wuebbles. I think both issues are very important, and 
on that--you know, I don't disagree with the fact that we need 
to be spending more on looking at air quality issues, and 
particularly particulates and effects on ozone.
    Mr. Rohrabacher. If I disagree with the former Vice 
President who was testifying here yesterday, if I disagree with 
him on anything, it would be that if we--let me put it this 
way. If we are going to go at this issue of pollution, I 
believe that we should be going at it in order--focus our 
efforts on trying to make sure that people's lives are healthy, 
that my children don't breathe in contaminated air and thus 
have heart or lung problems versus the idea of setting the 
pollution problem and focusing on whether or not the Earth is 
one degree warmer now, after 150 years of advancing 
industrialization of humankind. And----
    Dr. Wuebbles. Congressman, I agree with your concern about 
the air quality effects, however, I will also say that, having 
looked greatly at the issues related to climate, that that also 
is an extremely important issue and potentially have great--
many impacts on our children and grandchildren, and it is 
something we ought to be seriously----
    Mr. Rohrabacher. Does a----
    Dr. Wuebbles.--paying attention to.
    Mr. Rohrabacher. Do you believe that the--you said two 
percent of the CO2 that is man-caused comes from the airline 
industry?
    Dr. Wuebbles. Yes, roughly.
    Mr. Rohrabacher. And the--of the that is being poured into 
the atmosphere----
    Mr. Rothman. The gentleman's time is----
    Mr. Rohrabacher. Well, thank you very much, and I think I 
made----
    Mr. Rothman. Would you like to finish your question or----
    Mr. Rohrabacher. Well, you know what? I----
    Mr. Rothman. We will get it on the next round.
    Mr. Rohrabacher. I think we made the point, and----
    Mr. Rothman. Okay.
    Mr. Rohrabacher.--I hope that we do research that is not 
just the trendy research as to what climate change is all about 
but research aimed at trying to protect people's health.
    Dr. Wuebbles. I think both are important, yes.
    Mr. Rohrabacher. Okay. Thank you very much.
    Mr. Rothman. I thank the gentleman from California.
    I am going to begin my five minutes now, another one. It is 
a great privilege of being in the chair with nobody on my side, 
but it did take me 11 years to get here, in the minority, most 
of them.

                         Quality of Life Issues

    I wanted to note--I don't know if the other gentlemen had 
any comment on my Jetsons blocking off the sun thing and about 
the balancing of quality of life interests. And by the way, I 
do want to second my friend, Mr. Rohrabacher's, interest in the 
inability of our kids to breathe as we also enjoy air travel.
    Mr. Alterman. We endorse breathing. We think that is good. 
I think that, you know, when we look at this, everything in 
life is balanced--is an attempt to balance competing interests 
and trade-offs. I mean, even within the environmental 
community, we discover, scientifically, that if we address one 
issue, we may--and solve that issue, we may adversely affect 
other issues. It is all a trade-off, and I don't think any one 
of us wants blackened skies. I am a photographer. I don't like 
them. But, you know, it is a balancing, as Dr. Hansman said, of 
the economic needs of the country, the mobility of the country, 
against the environmental sensitivity. I think, as I stated in 
my written statement, this is one of the major challenges to 
the aviation industry. How do we balance the needs of the 
economy, the needs of the people for mobility, against the 
absolute need for environmental sensitivity, to the extent 
possible? So all of the issues that have been mentioned by the 
committee here are very important. Those are balanced against 
other interests.
    Mr. Rothman. Mr. Alterman, if I may, we have experienced in 
our history, the history of civilization, perhaps, where one 
technology is replaced with another technology and other 
modes--one mode of transportation is replaced with another. For 
example, when a highway gets clogged and you can't widen the 
highway anymore, we have to find another way to move people and 
goods, and there--you know, whether it is trains or planes or 
who knows what, but the marketplace, hopefully with government 
either not getting in the way or assisting will provide that 
alternative.
    But I did want to ask, Mr. Alterman, you had said in your 
testimony that you were looking forward to a reduction in noise 
in absolute terms by 2025 on page 5 of your testimony. And I 
wondered, the FAA, in the context of ongoing JPDO activity, has 
established a goal of reducing noise and emissions in absolute 
terms by the 2025, notwithstanding an expected major leap in 
air traffic. What did you mean by that, ``absolute terms''?
    Mr. Alterman. Well, those weren't my words. Those were the 
FAA words.
    Mr. Rothman. Ms. Cox, what did you mean by that?
    Ms. Cox. Again, sir, I will have to defer to my technical 
experts on the environment to tell me what that means.
    Mr. Alterman. Well, I am not sure I am a technical expert. 
I am a dumb lawyer, but what it means, to me, as Chairman of 
the Environmental Subcommittee of the REDAC is we want--it is 
not a percentage. In other words, if aviation expands, doubles, 
let us say, that doesn't mean we are going to--our goal is not 
to simply have less than doubling of the pollutants. It is to 
actually reduce them at the same time to less noise, less 
people impacted by noise in 2025 than are impacted today, less 
people impacted by air quality issues in 2025 than today. It is 
an ambitious goal. I am not sure, to be honest with you, 
whether we can do it, but it is the goal we have established, 
and I think it is a laudable one, and we need to work toward 
it.
    Mr. Rothman. With all due respect, I wanted to get to Dr. 
Hansman, who looks like he is ready to make a comment, also. I 
may be wrong, but I think that there is a growing interest 
amongst the American people to--a grown sensitivity to noise 
and emissions from aircraft, and they are kind of fed up. And 
there will be a revolt, at least that is--you know, again, I 
have a little airport in my district, but people outside of my 
district, Republicans, conservative folks, are telling me they 
are fed up. They bought a house in a nice part of the state, 
and all of a sudden, at 5:00 in the morning or 11:00 in the 
morning, there is this screeching of the brakes from the 747 
over their head or the 747s are lined up, 25, 30 miles out from 
New York City. And it just is really not what they bargained 
for.
    Dr. Hansman, did you have a thought? I know you mentioned 
in your testimony that internal and domestic concern, the 
environmental issues are becoming a bigger and bigger part of 
the challenges for aviation.
    Dr. Hansman. Yeah. I think you have addressed one of them, 
which is the noise concern. It is a significant concern, and it 
limits the capacity of the system, because, you know, people 
near New York don't want to have more airplanes coming over 
their house. On the other hand, people want to be able to fly 
to different locations. So we have this trade-off that we have 
to deal with. And in fact, the real benefit of the research is 
to really try to get mitigation. And there is--you know, there 
is progress being made, particularly on the noise side, some of 
the things that were talked about, the CDA approaches. There is 
a project going on at MIT right now called the Silent Aircraft 
Initiative, where the objective is to see whether it is 
possible to design an airplane where the noise outside of the 
airport contour is at or below the background noise level. So 
you know, I think that there is some hope.
    Mr. Rothman. Great. Thank you.
    My time is up.
    Mr. Calvert.
    Mr. Calvert. I thank the gentleman.
    I have several airports in my district, so noise is--the 
Chairman is correct. It is not a Democrat or a Republican 
issue, but I think that a point should be made that the 
technology that has been developed over the last number of 
years have developed much quieter engines. The problem, it 
seems to me, is the inventory of older aircraft that is flying 
today. You take a DC-9, for instance. It is a relatively small 
aircraft. It puts out a noise contour that is significantly 
higher than, say, a 747 with a newer engine design. So you 
know, maybe a mutual thing that we could do is figure out a way 
to change over that inventory at a quicker rate in order to get 
new aircraft that has quieter noise contours that would satisfy 
the Chairman's interests as well as my own in developing 
quieter aircraft at a rapid rate. I--as a matter of fact, I 
have an industry, Mr. Alterman may want to comment, told me 
that if you could change the inventory relatively quickly and 
some of these older aircraft that are still flying, you could 
actually reduce significantly, and much quicker, the noise 
issue throughout the United States, especially in major 
airports. Is that an accurate comment, Mr. Alterman?
    Mr. Alterman. Yeah. Again, it is a matter of balance. I 
mean, if you put all new equipment into the fleets, yes, you 
would get noise benefits, clearly. The problem is that this is 
not an industry where you can go to the drug store and say I am 
going to buy a new piece of--you know, a new toothpaste today. 
There is----
    Mr. Calvert. But I am thinking of--and this also applies to 
emissions, because some of the engines are, obviously, a lot 
more efficient than the engines that were developed 30 years 
ago. And I am a believer in the carrot approach rather than the 
stick approach in governance and the regulatory environment, is 
to give incentives to re-engine some of these aircraft or new 
aircraft, because the aircraft were designed that--at the time 
that they were designed, not thinking about the noise problem. 
Would the industry, do you think, have a positive reaction to 
an incentive, such as a tax incentive to depreciate that 
equipment over a rapid period of time?
    Mr. Alterman. Knowing our industry, they would be more than 
happy to consider any financial benefits for doing that, sure. 
And I think that--I think the--to be honest, you know, we would 
all like to accelerate it. I think we are--we have made great 
strides, I mean, as you have mentioned. I am not sure I 
remember the exact numbers, but I think since the 1970 era, we 
have had a reduction of approximately 90 percent in the number 
of people affected by noise, as defined by the FAA in the 65 
LDN. That number may be wrong. I can probably turn to the FAA 
to get the right number.
    Mr. Calvert. Maybe, you know, we can have others comment. 
Ms. Cox, I know, wants to comment on this. but I know that the 
gentleman's difficulties, as well as my own, is really 
applicable to when I get a complaint on noise, I can almost 
tell them what aircraft flew over, you know, I--because I know 
the aircraft.
    Would you like to comment on that, Ms. Cox?
    Ms. Cox. Well, I was going to elaborate on the number. 700 
million people, 30 years ago, were impacted by noise, and it is 
500,000 today. But if you are one of that 500,000, then you are 
not concerned about the people who are relieved of that. And so 
we are conducting research to address that issue. And 
particularly, in the particulates and emissions area, we are 
conducting a great deal of research and have had some success. 
The fuel consumption in the United States has been reduced by 
five percent since 2000 with the commensurate benefits in the 
number of carbon emissions that there are in the air.
    Mr. Calvert. Obviously, airlines make decisions, and the 
air cargo industry makes decisions based on economics. The DC-
10 was a great aircraft, but it burnt a lot of fuel and put out 
a lot of emissions. The cargo industry has gone to the DC-10, 
because they can offset their costs more effectively on moving 
parcels versus people. They can more equitably move those costs 
over.
    How do we--you know, it seems to me that the industry--the 
new aircraft that is coming across, the 777, the 787 
Dreamliner, if you take a look at the emissions that are coming 
out of these new engine designs from all the major engine 
companies, much , much better. Tremendous. The same thing with 
the automobile industry. If we could take the old cars off the 
road, you would have a relatively dramatic increase in air 
quality just by removing the inventory of old cars. The same 
thing applies with the air carrier industry, it seems to me. 
That is just--of course, outside our jurisdiction, but 
something that is of interest to me.
    How do we do that? How do we give an incentive to the 
industry, because I think you can see dramatic improvement, 
both in noise and emissions, both have an environmental plus, 
plus a--noise reduction? How do we do that in a rapid period of 
time? And it seems to me, you solve a lot of problems and, at 
the same time, do the technology for down the road, but there 
is some immediacy to these issues to keep the American people 
engaged in this subject. They would like to see this thing 
resolved sooner, rather than later.
    Anybody like to comment on that? My time has expired, but 
maybe he will--the Chairman will let me the indulgence of the 
committee.
    Dr. Hansman. There are historical precedence. The noise 
thresholds we use now have actually come--have been reduced 
over time, so we are now at stage three. There is discussion 
about what stage four is. One of the important parts of the 
research is the threshold for the next noise stage, stage four 
noise, will be what is technically feasible, so it is not 
useful to propose this noise target that you can't get to. And 
I think it is a very interesting idea to figure out how you 
would incentivize behavior in--both in terms of noise and 
emissions, you know, over the short-term and the long-term.
    Chairman Udall. Anyone else care to comment? I think it is 
a very important question that the Ranking Member has asked.
    The Chairman will yield himself five minutes at this time.
    I would tell the panel, we have votes scheduled for 11:15 
to 11:30. I am going to ask another round of questions, and 
then I know Mr. Rothman would like another five minutes, but we 
will begin to draw down the hearing and aim to close the 
hearing at--between 11:15 and 11:30.

     Further Clarification of Decreased Funding in Important Areas

    As for, Dr. Hansman, in your testimony, you stated that the 
REDAC has been concerned for a number of years the declining 
support for the R&D functions at both the FAA and NASA have 
resulted in the decline of national aeronautics capabilities. 
In some important areas--and this is a quote, I think, from the 
testimony you gave. ``In some important areas, research efforts 
are below critical mass, and others are not supported at all.'' 
What do you consider to be the most damaging consequences of 
the declining support of both the FAA and NASA? And can--would 
you be able to elaborate on some of the specific research areas 
that are either being shortchanged or not supported at all? And 
why are they important? And then they rest of the panel, if you 
want to comment after Dr. Hansman, I would look to your 
comments as well.
    Dr. Hansman. I will give a few examples. I am not sure I 
have the comprehensive list in front of me.
    One area of concern, for example, is human factors area 
work, and it is, historically, a great strength in NASA. We 
have the best aviation human factors capability in the world. 
The level of support for human factors in NASA has degraded 
significantly on, particularly, applied human factors to 
aviation problems. This is going to be critical for many of 
these NextGen concepts as we determine what is the appropriate 
role of automation and human performance.
    Another area that we are not as strong as we should be is 
on some aviation weather issues. That is an area of concern. 
Deicing procedures, fire protection, terminal area safety, 
things like that are all areas of concern.
    Chairman Udall. Other panelists? Dr. Wuebbles.
    Dr. Wuebbles. I was at the REDAC Environment and Energy 
Subcommittee meeting the last two days, and it was clear that 
climate, actually, has been rising as a new major issue within 
that committee in terms of its recommendations to the FAA. So 
it is being recognized there as an important issue.
    Chairman Udall. Mr. Alterman, if I could move in a similar 
way to your testimony, you pointed out that NASA's recent 
downgrading of its aeronautics activities ``has seriously 
affected the FAA research effort''. And then you go on to say 
that if Congress decides to restore NASA aeronautics funding to 
former levels, there should be ``specific Congressional 
guidance on how the money should be spent''. Would you 
elaborate on what that guidance would consist of, and what 
would you recommend that any restored NASA aeronautics funding 
be spent on----
    Mr. Alterman. Well, I--it is probably presumptuous of me to 
say that, but I--what we have discovered, when people get a pot 
of money with no direction, I am not talking about earmarks, I 
am talking about direction on where you--we should spend it, as 
you have heard from the panel, there are a whole range of 
activities that NASA has traditionally been involved in, and we 
always need to prioritize. We never have the money we 
absolutely need, so there need to be priorities on how you are 
going to spend money. So my thought was that if , in fact, you 
are going to give any agency a pot of money, it would help, I 
believe, to prioritize how that money--I am not saying spend 
this dollar here and that dollar there, but if the feeling of 
Congress is that climate change is important or noise 
mitigation or whatever NASA might be doing, it--those things 
need to be prioritized, and the agency that gets the money 
needs to know how you feel about the priorities and how you 
spend it.
    The other comment that I might make, although I am sure it 
is true of all bureaucracies, is, you know, we all get letters 
requesting contributions from charitable contributions all of 
the time, and the first question I ask is who is going to get 
the money if I give $100 to this organization. And I am always 
looking for organizations that actually flows the money to the 
intended recipients and not spent on a bureaucracy where people 
are making a whole bunch of money. I think the same thing is 
true when we get to pots of money that the government hands out 
to other agencies. We need to be sure that we are not simply 
funding a bureaucracy with nothing at the other end of it.
    Chairman Udall. A point well made, Mr. Alterman.

                 Recommendations Regarding NASA Funding

    The rest of the panel, do any of you have recommendations 
on how any NASA money--aeronautics money that was restored 
might be spent? And Ms. Cox, I know that NASA is perhaps a 
sibling, perhaps a cousin, and I am sometimes reluctant to give 
my siblings or my cousins advice. On the other hand, there are 
days when I want to give them advice, so I turn to you to see 
if you have any further thoughts.
    Ms. Cox. Well, one thing that we are looking into, NASA is 
one of the partner agencies of the Joint Planning and 
Development Office. So we don't have as much clarity as we 
would like to have now around future planning from the agency, 
so we are looking to the JPDO to work with their partner agency 
to identify what these issues are and what research might or 
might not be done in the future so that we can take the 
recommendations from the JPDO and proceed accordingly.
    Chairman Udall. If I might clarify, you look to the JPDO at 
playing a key role here as a convener and as an organization 
that can help get to what is really important?
    Ms. Cox. Right, because they do--they have the vision for 
the NextGen. They provide guidance toward our budgetary 
planning. They have oversight to our R&D program. And because 
NASA is a partner agency and contributes to those 
recommendations, I would expect that to come from them.
    Chairman Udall. Dr. Hansman.
    Dr. Hansman. The one area I have real concern over is 
innovation. It turns out, as things have been declining and we 
have been trying to focus around very specific things, there is 
actually very little in the NASA budget or process where 
someone with a brilliant new idea, so when finally we--some 
undergraduate invents the gravity drive that will enable the 
George Jetson car, there is actually not that much of an 
opportunity for those ideas to actually flow in and be funded 
in the system. So right now, it is very specifically targeted 
research efforts, they way they are doing it.
    Chairman Udall. Dr. Wuebbles, do you have any further 
comment? You have got the last word here.
    Dr. Wuebbles. In relationship to NASA, I think that a 
strong coordination between NASA and FAA towards looking at the 
climate issue would make a lot of sense. If we go back to--
throughout most of the 1990s, NASA had a major program looking 
at the environmental effects of aviation, and--that I was part, 
in fact. And I would, you know, like to see those capabilities 
certainly restored within the agency.
    Chairman Udall. Thank you.
    I would recognize the gentleman from New Jersey for five 
minutes.
    Mr. Rothman.
    Mr. Rothman. I thank the Chairman.
    Allow me just to say it is a pleasure and a privilege to 
serve with you, Mr. Chairman, and your grace and your 
generosity and wisdom are much appreciated, as always, and it 
is a pleasure to be serving on your committee.
    To our Ranking Member, who--our former Chairman, I look 
forward to working with you on a whole host of things, 
including that great idea about--although several great ideas, 
about the inventorying of the older aircraft and how we can 
incentivize as opposed to punish those who would be better off, 
from our point of view, not being in the sky in their planes.
    I was wondering, I know next week there is going to be a 
hearing of our subcommittee of NextGeneration air--the NextGen 
project, and I was wondering, respectfully, if the FAA could 
send over folks who are mindful or have at their fingertips 
these noise-mitigation figures and goals for the air--for the 
FAA.
    Ms. Cox. Sir, I believe I have someone just behind me who 
passed me a note on your last question, but I would leave it to 
him to interpret it.
    Carl Burleson, could you----
    Mr. Rothman. Well, maybe, since I only have a few more 
minutes, and we are going to have a whole other hearing on 
that, perhaps this person could join us next time as well, or 
whoever you suggest----
    Ms. Cox. And there are many people in his organizations who 
are far better qualified than I to address those questions.
    Mr. Rothman. Well, on that issue, maybe, but--and I wanted, 
also, to invite the panel members, I hope I am not saying 
anything improper, to recommend to the Subcommittee, at least 
in my area of particular interest. I am mindful of the great 
value to humanity, civilization, our economy, our quality of 
life, of air travel, so that is the given, okay. But I do--I 
want to focus on reducing, if not eliminating, air noise as an 
ideal goal. Are there projects, like at MIT, programs in other 
places around the world that we should be funding? If it is a 
project-by-project kind of a thing that this government does, 
do you have any ideas? Are there any projects that deserve 
funding? In this area, I would be most welcome to hear about 
them. And I just am going to rattle these off, and then if 
there is 10 seconds left, a response, but--I would also be 
interested to know the percentage of noise related to the older 
inventoried aircraft. You know. How does that break down? Did 
95 percent of the noise used to come from stage one and stage 
two now that they are kind of being phased out? And by the way, 
I introduced legislation to do that voluntarily, but--and 
invited industry to join me. I said, ``How long will it take 
you to phase them out? Five years? Ten years? What can we work 
out? I am a reasonable guy.'' They told me to go jump in the 
lake. That is when the carrot sort of dropped and the hammer 
came into my hand. But I would be interested in that inventory.
    Also, on airspace redesign, I am concerned. Let us assume 
we get to zero noise from aircraft but there is this constant 
flow over the head of, you said, half a million people. I 
believe it is more than that, but I would be interested to know 
how that figure came--comes about.
    Ms. Cox. It is 500 million.
    Mr. Rothman. Oh, 500 million. Okay. Well, that is quite a 
lot, then. Enough for us to care about.
    In airspace redesign, even if it is quiet, can we relocate 
it so that the sky isn't blotted out for any one segment or 
have to, you know, during the soccer game, see this stream 
overhead? Dr. Hansman is jumping at the----
    Dr. Hansman. The only thing I want to say is that you have 
got to get to the airport. So you can move the trajectory some, 
but, you know, if you have a limited number of airports, and we 
are not really building any new ones in the United States, you 
have got to get to and from the airports, so that is a 
fundamental constraint.
    Mr. Rothman. You know, and again, it is all in the 
balancing of the equities and where we have to spend more on 
noise-proofing everybody's home or building railroads in the 
middle of our high turnpikes and throughways to get to the 
airport. There are lots of choices that--cost is an issue, too, 
but--Mr. Alterman?
    Mr. Alterman. I just want to remind everybody that we take 
seriously this challenge. But one of the things that we have to 
remember is, as Mr. Rohrabacher said, he is concerned about the 
health impacts. When--one of the problems we have is the 
interrelationship of the various pollutants. And we could solve 
your noise problem, perhaps, but the results of solving the 
noise problem might be much unhealthier air. And----
    Mr. Rothman. Mr. Alterman, please accept this as a given. I 
would never want one to be at the expense of the other, so it 
would have to be----
    Mr. Alterman. Well----
    Mr. Rothman.--together----
    Mr. Alterman. Yeah, well, that is my point.
    Mr. Rothman.--and it is not a zero-sum game, if that is the 
right use of that phrase. I would want to--I would want noise 
reduced. I would also want environmental health issues 
addressed, as well. I want neither to suffer at the hands of 
the other.
    Mr. Alterman. Yeah, and that is our goal, too. I only 
raised the issue, because we have been concentrating in the 
last few minutes on the noise, and I just want--I don't want 
any misunderstanding that we have to treat this as an issue 
that relates to all the pollutants, and not just noise.
    Mr. Rothman. As a father of two teenagers with asthma in 
Northern New Jersey, I feel your pain.
    Thank you, Mr. Chairman.
    Chairman Udall. Thank you, Mr. Rothman.
    I wanted to see if Mr. Calvert had any additional 
questions.
    Mr. Calvert. No, I just wanted to thank the witnesses and 
congratulate the Chairman for his first successful hearing.
    Chairman Udall. Don't get ahead of yourself. We haven't 
finished yet, Mr. Calvert.
    Mr. Calvert. But I have.

      Changes to the FAA's R&D Program in the Context of the 2007 
                             Operating Plan

    Chairman Udall. I would--as I bring the hearing to a close, 
I want to direct a question to Ms. Cox, perhaps, for the record 
or for a short answer. And it focuses, that is, my question, on 
what changes have been made, if any, to the FAA's R&D program 
in the context of the 2007 operating plan as a result of joint 
resolution, in other words, the continuing resolution.
    Ms. Cox. As you know, we are fortunate to have our budget 
in hand now, and we are proceeding with that plan at a slower 
pace than, obviously, we would have, had we had more clarity 
about our budget initially. But with the funding that we have 
now, we are able to implement the operating plan that we have 
in place.
    Chairman Udall. Would you provide details, for the record?
    Ms. Cox. Absolutely.
    Chairman Udall. And then as a follow-on, do you anticipate 
any adjustments to the fiscal year 2008 R&D plan and funding as 
a result in the year now identified fiscal year 2007 operating 
plan? And if you want to take that, for the record, as well, I 
would be happy to let you do so.
    Ms. Cox. I will, because there are specific areas that we 
will need to address with that that I don't have at my hand.
    Chairman Udall. Thank you.
    I want to bring the hearing to a close, but before we do, I 
want to thank all of the witnesses. You have been an excellent 
panel. Thank you.
    Mr. Alterman, in particular, you shared with me that you 
come to the Hill about every 10 years to testify, and I think 
we may bring you back annually or maybe every six months, 
because you are, clearly, adept and comfortable here. And I 
thank you for your presentation, along with the rest of the 
panel.
    If there is no objection, the record will remain open for 
additional statements from the Members and for answers to any 
follow-up questions the Committee may ask of witnesses. Without 
objection, so ordered.
    The hearing is now adjourned.
    Thank you.
    [Whereupon, at 11:28 a.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Victoria Cox, Vice President for Operations Planning 
        Services, Air Traffic Organization, Federal Aviation 
        Administration

Questions submitted by Chairman Mark Udall

Q1.  What changes, if any, have been made to FAA's R&D program in the 
FAA's FY 2007 Operating Plan as a result of the Joint Resolution? Do 
you anticipate any adjustments to the FY08 R&D plan and funding 
allocations as a result of the FY07 Operating Plan?

A1. No changes have been made to the FY 2007 Operating Plan. As a 
result of the FY 2007 Operating Plan, we do not anticipate any 
adjustments to the FY 2008 R&D Plan. However, an analysis using JPDO 
budget guidance identified research and development programs, projects 
and funding supporting NextGen. The FY 2008 plan includes an additional 
$10M request for NextGen research involving wake vortex and human 
factors.

Q2.  Aircraft noise is a significant concern for communities across the 
United States.

Q2a.  Do you believe FAA's FY08 request for noise research is 
sufficient?

A2a. The FAA is currently investing $15 million dollars per year under 
RE&D and about $3 million per year under Airports Cooperative Research 
Program (ACRP) on noise and emissions mitigation research. Of those 
amounts, about 95 is spent on noise research geared toward developing 
analytical tools to better understand the relationship between noise 
and emissions and different types of emissions, better identifying and 
measuring the issues and impacts associated with aircraft noise, and 
generating improved solutions to mitigate these problems, and assessing 
the impact and advance implementation of operation procedures to reduce 
noise. However, as noise and emissions are interrelated, 90% of the 
noise investment also supports emissions mitigation. The vast majority 
of FAA's resources are spent on near-term mitigation as we invest about 
$300 million in insulation and land purchases to mitigate noise. 
However, the Administration NextGen Finance Reform bill proposes a 
number of R&D initiatives and investments that will provide 
opportunities to accelerate maturity of noise and emissions 
technologies (the Consortium for Low Emissions, Energy and Noise 
(CLEEN) program under section 606). We are also seeking new 
flexibilities in the use of mitigation funds to include development and 
implementation of operational procedures.

Q2b.  What have been the FAA's accomplishments to date in this area?

A2b. Over the last thirty years the population significantly impacted 
by aircraft noise was reduced from seven million to 500 thousand by 
improvements in source reduction technologies, operations and other 
mitigation measures. These technology improvements were generated by 
research undertaken by NASA, DOD, and industry. Specific outputs of the 
FAA research program had a greater regulatory and policy focus 
including:

        <bullet>  Developed highly influential advanced computer models 
        for airport and heliport noise analysis--over 600 copies of the 
        models have been sold around the world and used in over 160 
        U.S. airport studies involving more than $1.8 billion in 
        airport noise compatibility grants; they have also provided the 
        basis for an aircraft overflight noise exposure prediction 
        model for Grand Canyon National Park.

        <bullet>  Conceptualized and developed a new generation of 
        analytical tools which will revolutionize approaches to 
        aviation environmental assessment and regulation by enabling a 
        comprehensive approach that assesses interdependencies and 
        optimizes solutions based on cost-benefit analyses of impacts 
        and mitigation. The tools will provide significant cost savings 
        and other benefits to users.

    However, in recent years, the FAA has taken a more aggressive role 
in maturing nearer-term technology and operational solutions including:

        <bullet>  Developed a clean and quiet new procedure--Continuous 
        Descent Arrival (CDA). By landing using a continuous decent, 
        lower power approach CDAs enable reducing community noise by 3-
        6 dB as well as fuel burn and emissions. We are in the process 
        of transitioning CDA into the NAS.

        <bullet>  In collaboration with Industry and NASA under the 
        Quiet Aircraft Technology (QAT) Program demonstrated a number 
        of quiet aircraft technologies, including inlet acoustic 
        treatments, low noise landing gear, and chevron nozzles for 
        community noise reductions.

Q2c.  What do you think are the most promising research opportunities 
in aircraft noise reduction--and what should be FAA's role in the 
research? NASA's role?

A2c. The vast majority of promising opportunities involve either new 
engine/airframe technology or innovation in air traffic management 
procedures. Ninety percent of the environmental improvements (noise and 
emissions reductions) in the aviation system in the last 30 years have 
come from improved technology. Without a pipeline of near-term (5-10 
years) technology improvements, we cannot achieve the absolute 
reduction of significant noise and air quality impacts that we believe 
are necessary to enable NextGen growth. We need robust research and 
development to accelerate technology solutions to manage and mitigate 
environmental constraints. The goal is to have a fleet of quieter, 
cleaner aircraft that operate more efficiently with less energy.
    To that effect, the FAA is seeking to establish a Consortium for 
Low Emissions, Energy and Noise (CLEEN) technology (Section 606). The 
program is focused on collaboratively (50/50 private sector/federal 
funding) demonstrating aircraft and engine technologies that reduce 
noise and local air quality and greenhouse gas emissions at the source 
to a developmental level that will allow quicker industry uptake of 
these new environmental technologies in order to produce a more 
efficient, cleaner and quieter fleet. We believe it is feasible to 
reduce noise levels by 10 dB at each of the three certification points 
relative to 1997 subsonic jet aircraft technology.
    Aside from cleaner and quieter technologies, FAA has a crucial role 
to play in collaboration with airlines and airports in advances in 
reducing community noise exposure by leveraging advances in 
Communication, Navigation and Surveillance technology in the short- to 
medium-term to optimize aircraft arrival and departure procedures, 
sequencing and timing on the surface, in the terminal area and enroute, 
thereby increasing airport and airspace throughput and reducing noise, 
fuel burn and emissions. Provisions in Section 604 would facilitate 
these endeavors.
    There are also promising research opportunities advancing 
analytical tools to help us assess environmental impacts to make sure 
that we can assess the issues and solutions--so we target the right 
problem and solve it in the most cost-effective manner.
    Regarding research role, industry focuses on developing near-term 
technology (B787). NASA is focusing on long-term technology. Between 
the two, there is a gap where we need to bring to maturation the next 
generation of technology (e.g., quieter, cleaner versions of B787) that 
would make a difference in the next 5+ years and we believe this is the 
role of FAA can play under CLEEN.

Q2d.  Please provide noise research funding numbers for FY06 through 
FY12.

A2d. Aerospace systems have historically been designed--and regulations 
for their certification and use have been written--as though aviation 
noise and various emissions had nothing to do with one another. 
However, aviation noise and emissions are highly interdependent 
phenomena. Our environment and energy research investments are based on 
a new, interdisciplinary approach. Consequently, the majority of our 
investment benefits both noise and emissions. Our research investments 
that will help us understand and mitigate aircraft noise and emissions 
impacts are shown in Table 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2e.  What specifically does the goal of ``reducing noise and emissions 
in absolute terms by 2025'' mean?

A2e. Our goal is to reduce the significant impacts of aircraft noise 
and local air quality emissions on a net basis. For example, if half a 
million people are impacted by significant noise today, as defined as 
exposed to 65 DNL, the target is less than half a million people would 
be exposed, despite a here fold capacity growth, to the appropriate 
noise metric for 2025. We are also working on developing sufficient 
understanding of the science and impacts to develop appropriate metrics 
for greenhouse gas emissions.

Q3.  How does the Federal Interagency Committee on Aviation Noise 
function? What is FAA's role? Does the Committee produce an interagency 
research plan? If not, why not? If so, please provide a copy. What 
specifically has this Committee accomplished to date?

A3. The Federal Interagency Committee on Aviation Noise (FICAN) was 
formed in 1993 to provide a forum for a coordinated Federal Government 
approach over future research needs to better understand, predict and 
control the effects of aviation noise, to encourage new technical 
development efforts in these areas, and set technical policy with 
respect to aircraft noise. It does not produce research plans, but 
seeks to foster coordination of efforts among relevant agencies.
    The Committee is currently composed of representatives of the 
departments of Transportation (Office of the Secretary and the Federal 
Aviation Administration), Defense (all three branches), Interior 
(National Park Service), Housing and Urban Development; the agencies of 
Environmental Protection, National Aeronautics and Space. Each of these 
federal agencies either conducts significant research on aviation noise 
or has broad policy roles with respect to aviation noise issues (such 
as HUD, NPS and EPA). In the past FAA or the Defense Department 
representatives have led the committee since their work is directly 
related to aviation. Currently, the Chair is from the Navy.
    The most widely recognized product of the FICAN (published by a 
proceeding committee in 1992) is the report ``Federal Agency Review of 
selected Airport Noise Analysis Issues'' which has findings, 
conclusions and recommendations for the aircraft noise policy issues. 
The FICAN has also published findings and reports on extensive array of 
aircraft noise issues such as low-frequency noise, supplemental 
metrics, effects of aircraft noise on learning, noise in national 
parks, etc.
    Additional information on FICAN can be found at: http://
www.fican.org/

Q4.  In his testimony Dr. Hansman stated that ``. . .the NASA program 
has been in transition, and it is still not fully clear what the full 
content of the NASA program will be and its consequent impact on the 
FAA.''

        a.  Has NASA given you a clear and complete description of its 
        restructured program yet, and has it identified those areas of 
        research that supported FAA in the past that will be cut back 
        or eliminated? If so, what are those areas?

        b.  Has NASA told you how far (in terms of technological 
        maturity) it will take the research that it is planning to do?

        c.  What is the impact of NASA's redirected aeronautics program 
        on the FAA, and when will that impact be felt?

A4. The FAA has program documentation from NASA for its aeronautics 
research. The documentation does provide a clear, top-level description 
of its research thrusts and milestones. However, we are waiting for the 
completion of detailed project plans to better understand the details 
of the research and to what level of maturity the research will be 
brought. Currently, JPDO, NASA and FAA are working together on the 
general requirements for technology transfer from NASA to FAA to ensure 
that we understand and have plans to ensure that NASA's research 
efficiently transitions to FAA for further development and systems 
engineering in preparation for implementation investment decision 
making. Furthermore, the JPDO has a requirement to deliver an R&D plan 
to OMB this fall. As a part of that process, JPDO will document the 
research requirements for NextGen and the responsibilities of each 
agency in addressing those requirements. In summary, we do have general 
documentation from NASA that demonstrates alignment to NextGen 
requirements and we are working together and with the JPDO to work 
through the details to ensure we can transition NASA research into FAA 
implementation.
    Because of lengthy lead times, research required to support NextGen 
implementation through FY 2015 has been completed with a provision for 
supporting technology transition of this research. However, because of 
these lengthy lead times, the research required for products to be 
implemented in FY 2016 and beyond must be started soon. As previously 
stated, the FAA is working with the JPDO and NASA to understand what 
research will be delivered so potential ``gaps'' can be defined.

Q5.  Dr. Hansman discusses the ``technology maturity gap'' that is 
emerging as a result of NASA's planned cutbacks. Others, including the 
GAO, have raised the same concern.

        a.  What are the most important research areas that are 
        projected to face a ``technology gap?''

        b.  Does your FAA R&D budget for FY08 with its five-year runout 
        assume that FAA will fund all of the technology maturation 
        tasks that you had been counting on NASA to do? If not, how 
        much additional funding will you require for FAA to do all of 
        the technology maturation?

A5. We are depending on NASA for the longer-term, transformational 
elements of the transition to NextGen that we expect to begin 
implementing after 2015. Up to that point, the research, much of which 
was originally pioneered by NASA, has largely been completed or is at a 
more advanced stage of development. Therefore, for the next several 
years, we do not expect that there will be any significant technology 
gaps. The FAA's reauthorization that is currently with Congress 
reflects our expanded requirements for R&D to meet the mid-term needs 
of the transition to NextGen (up to 2015). In the long-term, we are 
looking to NASA to answer challenging transformational questions, such 
as the relative roles of humans and automation in NextGen, how to 
implement automated, fault-tolerant gate-to-gate 4D trajectory 
management within the NAS. As previously discussed in response to 
Question 4, we are actively working with NASA and JPDO to understand 
the details of the research that is required and to ensure we have a 
technology transition pathway.

Q6.  Dr. Hansman in his testimony raises a concern about whether or not 
NASA intends to continue supporting the aviation safety and human 
factors data bases that have been built up over the long-term by NASA. 
What has NASA told you--does NASA intend to maintain and support these 
important data bases?

A6. The aviation safety data bases from the NASA Voluntary Aviation 
Safety Information Sharing Program (VASIP) are being transitioned to 
the FAA for implementation as part of the Aviation Safety Information 
Analysis and Sharing System (ASIAS). NASA responsibilities consist of 
supporting transition of Voluntary Aviation Safety Information Sharing 
(VASIS) technologies to ASIAS by the end of FY 2007. NASA will continue 
development of data mining analytical tools that could be applied to 
systems such as ASIAS. The NASA-managed Aviation Safety Reporting 
System (ASRS) will continue to be supported by the FAA as new 
electronic reporting procedures are implemented. The NASA National 
Aviation Operations Monitoring Service (NAOMS) has been picked up and 
sponsored by the Air Line Pilots Association (ALPA).

Q7.  Has the interagency Joint Planning and Development Office (JPDO) 
given you a clear set of research requirements yet?

        a.  If so, would you please provide them to the Committee?

        b.  If not, why hasn't the JPDO done so, and when do they 
        intend to provide them?

        c.  You have outyear funding set aside in your budget for 
        ``Next Gen'' research. What specifically is that funding 
        intended to be used for?

        d.  Do you consider JPDO research requirements ``guidelines'' 
        for FAA's R&D program to consider, or do you consider them to 
        be mandatory requirements that will have to be addressed 
        completely in FAA's R&D plan?

A7. JPDO provided R&D needs to the partner agencies in January of this 
year based on the NextGen Concept of Operations and the transitional 
Operational Improvements. This was a starting point for FAA/JPDO 
collaborative planning. Within the FAA, we have used the Operational 
Evolution Partnership (OEP) as the mechanism for incorporating NextGen 
requirements into our R&D plan. The JPDO has been a full partner in the 
OEP process to ensure that NextGen R&D needs are appropriately 
reflected in FAA's plan. Furthermore, the JPDO will publish an 
Integrated Work Plan late this summer and, as a part of that, is 
developing a multi-agency R&D plan that it will submit to OMB this 
fall. FAA is fully participating in this effort as well, and we will 
ensure that the OEP and multi-agency R&D plan are synchronized. We will 
use the outyear funding set aside for NextGen R&D to carry out the 
FAA's portion of the multi-agency R&D plan.

Q8.  General aviation operations are an important part of the Nation's 
aviation system. What specific research do you have underway or planned 
related to general aviation, and how much do you plan to spend on that 
research?

A8. A significant component of general aviation research addresses 
human factors issues associated with getting better weather information 
into the cockpit to improve pilot decision making and reduce accidents. 
Reducing visual flight rules (VFR) flight into instrument 
meteorological conditions (IMC), which is the leading cause of general 
aviation fatalities, is a primary focus. Developing better training and 
testing of weather knowledge and its application is another component 
along with identifying proactive methods for general aviation data 
collection that could be used for risk assessment and accident 
prevention. Non-weather related human factors research includes 
development of the technical information needed to publish proficiency 
standards for very light jets. Total funding is $1.15M.

Q9.  Do the technology demonstrations come out of the agency's overall 
R&D budget, and if so, how do you prioritize between R&D and carrying 
out technology demonstrations?

A9. The demonstrations are part of the overall R&D budget. They are a 
key part of the R&D development which includes, per OMB Circular A-11, 
``design and development of prototypes and processes,'' and are 
included in the FAA's 2007 National Aviation Research Plan (NARP).
    The demonstrations have been prioritized among all developmental 
activities. They are included in the R&D portfolio since these 
demonstration leverage research that has identified opportunities to 
move air traffic control towards NextGen trajectory based operations 
through new algorithms for decision support systems, new flight deck 
systems, and new procedures. They were given their priority among 
developmental activities because successful results will lead to 
NextGen midterm implementations.

Q10.  What is the timetable for certifying Unmanned Aircraft Systems 
for operations in the national airspace system?

A10. The development of guidance and regulations for Unmanned Aircraft 
Systems (UASs) will be an evolving process, and is crucial to the safe 
integration of UASs into the National Airspace System (NAS). To support 
these activities, the Aviation Safety Organization established the FAA 
Unmanned Aircraft Program Office in early 2006 to specifically consider 
and address required activities to support the safe establishment and 
growth of the UAS Industry. The level of effort for related efforts 
requires significant resources from the FAA's Air Traffic and Aviation 
Safety organizations.
    In 2004, the FAA requested that RTCA, a government-industry 
consensus standards development forum, initiate an effort to develop 
civil standards for UASs. In response, RTCA established Special 
Committee 203 (SC-203) to develop and recommend UAS standards, 
specifically for Detect Sense and Avoid (DSA) and Command, Control 
standards, and Communication (C3) technology. Since its inception, SC-
203 has met 10 times, making significant progress in defining UAS 
operational concepts, as well as serving as a liaison with the 
international community in effort harmonization the developing 
standards. The committee's current schedule reflects a timeline to 
deliver recommendations for UAS technical standards to the FAA in 2011. 
Approval of these technical standards is largely dependent upon the 
successful parallel effort of industry to develop DSA and C3 
technologies. In the interim, the FAA is evaluating various 
alternatives to accelerate limited operations of UASs in the NAS. The 
desired goal is to implement streamlined processes to enable UAS access 
to the NAS, based on the level of maturity of UAS technology. 
Appropriate levels of funding and resources will be needed to 
accomplish this task. If resources are available and the industry 
wishes to pursue civil, commercial applications for UASs, the FAA has 
an enabling strategy to facilitate routine UAS ``file and fly'' access 
to the NAS within the 2012-2015 timeframe.

Q11.  The REDAC had recommended that ``When the decision occurs to 
implement research results, funding must be identified for the 
transition process. . .'' The FAA responded that it is working with the 
Agency's Research Project Description process to create a line item to 
support Technology Development and transfer of technology. Is that line 
item included in the FY08 budget request?

A11. The FAA's reauthorization that is currently with Congress reflects 
our expanded requirements in fiscal years 2008-2012 to support 
transition of research. Our Capital Investment Plan for fiscal years 
2008-2012 carries a ``Future NextGen Air Transportation System--System 
Development line (Budget Line Item Number 1A 14X) beginning in fiscal 
year 2009.

Questions submitted by Representative Ken Calvert

Q1.  Historically NASA has played a major role performing research and 
development on behalf of FAA, especially with respect to air traffic 
control technologies, but that relationship appears to be changing. 
NASA's aeronautics research budget has been reduced by more than half 
over the last few years, and NASA is no longer developing new 
technologies to a high level of technical maturity. Looking to the 
future, how would you characterize NASA's role with respect to FAA? 
Will it continue to diminish? How detrimental is that to the overall 
effort?

A1. NASA has and will continue to play a critical role in ATC research. 
Without their continued foundational research, the longer-term, higher-
risk elements of the NextGen transformation will likely go unrealized. 
Their policy decision to not pursue higher levels of technical 
readiness will ultimately require FAA to accept technologies earlier in 
the pipeline. We are working closely with NASA and the JPDO to develop 
general requirements for technology transition which we will use to 
work specific plans between the agencies. FAA's reauthorization bill, 
which is with Congress, specifies the funding requirements for FAA to 
deliver on development and implementation of NextGen over the next five 
years. As we work the details of transitioning technology between NASA 
and FAA, we will update our budget projections to cover those outyear 
requirements.

Q2.  Traditionally NASA has developed promising technologies to a high 
maturity level enabling FAA to incorporate them into its air traffic 
control system without too much additional development. Now that NASA 
is confining its development work to a basic level of technical 
maturity, does FAA have the resources and capability to fill this void? 
Where will it get the personnel?

A2. Timely and efficient transition of research products will require 
the FAA to engage at a lower technical maturity levels. Past successful 
transitions of NASA technologies have taken longer to fully implement 
in the National Airspace System than we can allow if we are to realize 
the NextGen system in time to meet forecasted demand.
    The FAA's reauthorization request reflects our expanded 
requirements for R&D to meet the mid-term needs of the transition to 
NextGen. The requested funding will allow this transition. We will 
focus internal resources on NextGen research and technology development 
and will use attrition to hire technical and program management 
expertise. We will use the Operational Evolution Partnership to focus 
MITRE CAASD research on NextGen requirements; we are assessing 
resources available at Volpe to supplement FAA capabilities, and we may 
look to industry for assistance.
    We are in the process of seeking outside expertise in the form of a 
``blue ribbon panel'' to explore strategies to strengthen our technical 
and contract management expertise.

Q3.  NASA, the Defense Department, and other federal agencies have 
demonstrated that Unmanned Aerial Vehicles can be flown safely in the 
national airspace system and have the potential to serve useful civil 
and emergency services roles. Many industry experts envision UAVs 
playing more prominent roles in the U.S. airspace, but FAA requirements 
to fly them are complex and it can take weeks to gain permission to 
fly.

Q3a.  What is the current state of research on operating UAVs in 
controlled airspace?

A3a. The introduction of Unmanned Aircraft Systems (UASs) into the 
National Airspace System (NAS) continues to present many challenges to 
the aviation community, including the Federal Aviation Administration 
(FAA). Although NASA, the Department of Defense (DOD), and other 
federal agencies have safely flown UASs in the NAS, the FAA works with 
these organizations to develop conditions and limitations for UAS 
operations to ensure they do not jeopardize the safety of other 
aviation operations or harm the general public. Typically these 
operations are flown in segregated airspace, or require the use of 
visual observers to mitigate identified risks.
    Several Research activities are ongoing in support of UAS 
operations and are in various levels of maturity. Many of these efforts 
are multi-year activities, and will require continued finding, often 
competing with other safety related R&D activities, and include 
investigating the following areas:

        <bullet>  UAS Regulatory Studies;

        <bullet>  UAS Airframe Technology Survey;

        <bullet>  System Safety Management;

        <bullet>  Compression Ignition Engines;

        <bullet>  Propulsion System Technologies;

        <bullet>  Ground Observer Requirements for UAS Operations;

        <bullet>  Design and Development of Visibility Analysis Tool;

        <bullet>  Vision Model to Predict Target Detection and 
        Recognition;

        <bullet>  Sensory Deficiency Assessment Program;

        <bullet>  UAS Maintenance and Repair; and

        <bullet>  Ground Control Station Radio Frequency Interference.

    To resolve the complex issues surrounding UAS-NAS integration, FAA 
is collaborating extensively with the DOD Joint Integrated Product 
Team, representatives from the DOD Policy Board on Federal Aviation, as 
well as various other U.S. Government agencies, including Department of 
Homeland Security, Department of Commerce, Department of Justice, and 
NASA.
    To further international harmonization associated with UAS-airspace 
integration, FAA is actively engaged with counterparts from both the 
European and international aviation authorities. For example, FAA 
actively co-chairs the European counterpart organization to RTCA SC-
203, EUROCAE Working Group #73, for UAS technical standards 
development. FAA closely collaborates with EUROCONTROL annual work 
plans for research and development activities to help mitigate UAS-
airspace impacts, which includes the study of human factors.

Q3b.  By what date does FAA anticipate UAVs having routine and 
convenient access into the national airspace system?

A3b. The development of guidance and regulations for Unmanned Aircraft 
Systems (UASs) will be an evolving process, and is crucial to the safe 
integration of UASs into the National Airspace System (NAS). To support 
these activities, the Aviation Safety Organization established the FAA 
Unmanned Aircraft Program Office in early 2006 to specifically consider 
and address required activities to support the safe establishment and 
growth of the UAS Industry. The level of effort for related efforts 
requires significant resources from the FAA's Air Traffic and Aviation 
Safety organizations.
    In 2004, the FAA requested that RTCA, a government-industry 
consensus standards development forum, initiate an effort to develop 
civil standards for UASs. In response, RTCA established Special 
Committee 203 (SC-203) to develop and recommend UAS standards, 
specifically for Detect Sense and Avoid (DSA) and Command, Control 
standards, and Communication (C3) technology. Since its inception, SC-
203 has met 10 times, making significant progress in defining UAS 
operational concepts, as well as serving as a liaison with the 
international community in effort harmonization the developing 
standards. The committee's current schedule reflects a timeline to 
deliver recommendations for UAS technical standards to the FAA in 2011. 
Approval of these technical standards is largely dependent upon the 
successful parallel effort of industry to develop DSA and C3 
technologies. In the interim, the FAA is evaluating various 
alternatives to accelerate limited operations of UASs in the NAS. The 
desired goal is to implement streamlined processes to enable UAS access 
to the NAS, based on the level of maturity of UAS technology. 
Appropriate levels of funding and resources will be needed to 
accomplish this task. If resources are available and the industry 
wishes to pursue civil, commercial applications for UASs, the FAA has 
an enabling strategy to facilitate routine UAS ``file and fly'' access 
to the NAS within the 2012-2015 timeframe.

Q4.  How does FAA coordinate its weather research programs (FY08 
request is $16.8M; five year request totals $84M) with those of other 
federal agencies (e.g., National Weather Service) to ensure that 
research efforts aren't duplicated, and that research products are 
being widely disseminated?

A4. The Aviation Weather Research Program is highly leveraged with 
other government agency work including the Department of Commerce, the 
Naval Research Laboratory, National Aeronautics and Space 
Administration and, recently, with several of the Department of 
Energy's programs as well as several Federally Funded Research and 
Development Centers (FFRDCs). Within the Department of Commerce 
collaborative work on aviation weather extends to several National 
Oceanic and Atmospheric Administration laboratories including the Earth 
Sciences Research Laboratory and the National Severe Storms Laboratory, 
along with the National Weather Service's National Centers for 
Environmental Prediction. In addition to interagency outreach the 
program also coordinates science activities with several countries 
including Canada, Great Britain, and China.
    In FY 2007 the program manager began participating in the Joint 
Program Development Office's (JPDO) Weather Executive Council. The JDPO 
includes membership from seven agencies, including Department of 
Transportation, Federal Aviation Administration, National Aeronautics 
and Space Administration, Department of Homeland Security, Department 
of Commerce, Department of Defense and Office of Science and Technology 
Policy. In FY 2006, the JPDO Executive Council reviewed aviation 
weather activities at several agencies, including the FAA's Aviation 
Weather Research Program. The JPDO Weather Executive Council also 
includes representatives from industry to enhance outreach.
    Additionally, as part of the FAA's Research, Engineering and 
Development portfolio, the program is reviewed both by internal 
management and by the Research, Engineering and Development Advisory 
Council.
                   Answers to Post-Hearing Questions
Responses by R. John Hansman, Jr., Co-Chair, FAA Research, Engineering, 
        and Development Advisory Committee; T. Wilson Professor of 
        Aeronautics and Astronautics and Engineering Systems; Director, 
        MIT International Center for Air Transportation, Massachusetts 
        Institute of Technology

Questions submitted by Chairman Mark Udall

Q1.  A concern that has been raised is the potential impact of the 
cutback in NASA's human factors research program. How important is 
human factors research to the success of FAA's system development 
initiatives, and how concerned is the REDAC about the NASA cutbacks?

A1. Human factors issues are critical in terms of the safety and 
capacity performance of the NAS. Human error remains a primary cause 
factor in 60-70 percent of fatal accidents. Controller cognitive and 
workload limits are one of the major constraints on the capacity of the 
NAS. Many of the proposed NextGen concepts will change the roles of the 
humans in the system but humans will remain in key supervisory roles 
for the foreseeable future. It is very important to understand the 
human-automation integration issues associated with implementing 
NextGen. These issues should be addressed early in the system 
development process to avoid unintended safety issues or expensive late 
stage redesign efforts. when human factors concerns emerge late in 
system development.
    The REDAC has expressed significant concern about the national 
capability in aviation human factors. This concern precedes the recent 
NASA cutbacks.

Q2.  In your testimony you state that ``as the JPDO is focused on 
longer-term transformation concepts, there is a tension between those 
needs and the R&D required to address nearer-term issues and to manage 
the system.''

Q2a.  What does the REDAC think the appropriate balance should be 
between funding for transformational R&D and R&D required to address 
nearer-term issues?

A2a. The REDAC has recommended a portfolio approach with a balance 
between near-term focused research to address emergent problems, 
longer-term research for transformational goals such as NextGen, and a 
small investment in long-term exploratory research to stimulate 
innovation.

Q2b.  Does FAA currently have the right balance between those two kinds 
of research?

A2b. The FAA has traditionally focused on research to support short-
term issues. The forces on the agency, and the research requirements, 
processes tended to prioritize investment towards current issues. 
Because of the time required to program and execute the research 
programs, the results were often too late to be as effective as would 
be desired. An increase in research towards anticipated needs would be 
beneficial. The FAA management has recognized this need and is 
developing processes to define research requirements to support both 
the mid-term Operational Evaluation Plan and the longer-term NextGen 
issues. The REDAC would also like to see a small part of the portfolio 
for investment in innovation and new concepts.

Q3.  In your testimony you state that ``the major challenge for the FAA 
R&D program and the agency as a whole will be to find ways to 
efficiently and quickly implement the technologies, and new operational 
concepts into the national airspace system while maintaining or 
increasing level of safety and minimizing environmental impact.'' You 
then conclude that ``it is unclear whether we have the strategic core 
competency to effectively implement the new concepts in the national 
airspace system, and we must develop approaches to enable effective 
transition.''

Q3a.  Can you elaborate--is it a research problem, a workforce problem, 
a management problem, a funding problem, or something else?

A3a. While all of the elements above have some role, the key issues are 
cultural. The current culture has developed over a long period of 
management and maintenance of the NAS. Most of the changes to the NAS 
have been adaptations to the current system and there have been very 
few major changes for the past three decades. There have been no recent 
changes of the transformational scale proposed in some of the NextGen 
concepts. Also during this time, there has been an admirable 
improvement in the level of safety or the system. There has also been 
an increase in the safety and environmental analysis required to get 
operational approval. Finally as the system has grown in scale it has 
also grown in complexity. These factors combine to make it extremely 
difficult and time consuming and to make substantial changes in how the 
NAS operates.

Q3b.  What would you recommend be done?

A3b. There are three recommendations. First, developing the capability 
for efficient operational approval should be a goal for the FAA, the 
JPDO, as well at the partner agencies. Second, research should be 
conducted into both the operational approval processes and the 
techniques (such as lean process, advanced safety analysis, and system 
trade studies) to improve the efficiency and to enable system 
transition. Third, several pathfinder programs should be defined for 
expedited operational approval where the processes are monitored for 
efficiency, coordination, and effectiveness to identify both best 
practices and areas where improvements are needed. These programs 
should provide a template for subsequent programs.

Q4.  Unmanned Aircraft Systems (UAS) are likely to play a very 
significant role in future aviation activities. Is the FAA doing enough 
to understand the impacts of UAS on the national airspace system and to 
certify them for operations in the airspace? If not, what would you 
recommend be done? Should other governmental agencies be involved?

A4. The FAA is struggling to respond to the growing demand for access 
to the NAS from both military and civil UAS users. Two key demands are 
military requests for easier ``file and fly'' access for their large 
scale vehicles (such as Predator and Global Hawk) and civil or public 
agency users (e.g. police) who desire to fly small model aircraft scale 
UAVs for surveillance missions.
    Operational approval of UAS in the NAS is an example of the type of 
transformational system change I discussed in the previous question. 
Routine UAS operations represent a significant departure from current 
NAS operations and may require fundamental changes in NAS operations 
and policy. This is a significant challenge for the FAA. The UAS 
program office is putting out a significant effort but appears to be 
under-resourced in terms of staff and funding. The shift in NASA focus 
away from UAS and other applied areas has also pulled resources away 
from the UAS programs office in technical areas such as UAV flight 
dynamics, airspace modeling tools, and UAS frangibility.
    The REDAC would recommend increasing support for research related 
to UAS in the NAS and for the UAS program office with the goal of 
accelerating operational approval. The DOD and NASA are potential 
collaborators in these efforts.

Q5.  Aircraft noise is a significant concern for communities across the 
United States.

Q5a.  Do you believe FAA's FY08 request for noise research is 
sufficient?

A5a. Noise has been identified as one of the key focus areas in the FAA 
FY09 requests due both to the impact on local communities and the 
ability of the system to expand capacity. Given the importance as well 
as the time required to ramp up capability, it would be prudent to 
initiate some of the FY09 efforts in FY08.

Q5b.  What have been the FAA's accomplishments to date in this area?

A5b. At the aggregate level there have been significant improvements. 
For example the number of people exposed to the 65 dbA noise level in 
the U.S. has decreased from approximately seven million in the mid-
1970's to approximately 500,000 today. The FAA has also been supporting 
the development of new operational approaches such as recent flight 
tests of low noise Continuous Descent Approaches (CDA) at Louisville, 
KY.

Q5c.  What level of funding would be consistent with its importance and 
would allow us to exploit opportunities for aircraft noise reduction?

A5c. The proposed FY09 levels of $55 Million plus $5 Million from ACRP 
funds proposed in the National Aviation Research Plan appear to be 
appropriate.

Q5d.  What do you think are the most promising research opportunities 
in aircraft noise reduction--and what should be FAA's role in the 
research? NASA's role?

A5d. In the near-term, operational procedures such as the Continuous 
Descent Approaches and flight procedure modification will provide the 
most promising opportunities for aircraft noise reductions. The 
challenges for these efforts will be in integrating these new 
procedures into the NAS and the impact on airspace design, procedures, 
and capacity. NASA and the FAA can collaborate on the airspace and 
operational procedures. NASA has also charted a path to develop 
aircraft with significantly lower noise footprints. This is a 
commendable effort, but given the slow turn over of the commercial 
aircraft fleet the operational procedures improvements will be the most 
important in the short-term.

Q6.  How would you characterize FAA's cooperative research with 
academia and industry? Do you have any recommendations to improve the 
effectiveness of the cooperative activities?

A6. The FAA has several effective Centers of Excellence (COE) focused 
on specific topics such as aviation environmental impact, operations 
research, etc. The COEs typically stimulate cooperative research 
between academia and participating industry partners. The FAA is less 
effective at stimulating innovative concepts and bringing in new 
researchers and students into cooperative activities. It would be 
desirable to have a small part of the research portfolio dedicated to 
innovation and the support of students with the goal to stimulate both 
excitement and opportunities in fields critical to the FAA mission.

Questions submitted by Representative Ken Calvert

FAA/NASA Collaboration

Q1.  Historically NASA has played a major role performing research and 
development on behalf of FAA, especially with respect to air traffic 
control technologies, but that relationship appears to be changing. 
NASA's aeronautics research budget has been reduced by more than half 
over the last few years, and NASA is no longer developing new 
technologies to a high level of technical maturity. Looking to the 
future, how would you characterize NASA's role with respect to FAA? 
Will it continue to diminish? How detrimental is that to the overall 
effort?

A1. Given the diminished NASA aeronautics research budget, NASA has 
elected to focus it's efforts toward more fundamental research which 
has resulted in some cutbacks in areas that have recently supported FAA 
needs. NASA continues to work in air traffic control systems and 
technologies but with a longer-term perspective driven by fundamental 
research issues or NextGen requirements. NASA is also working on safety 
and environmental research in collaboration with the FAA. NASA will 
continue to work with the FAA both directly and through the JPDO on 
longer-term fundamental research but the FAA will have to cover the 
shorter-term and more applied research efforts.

Q2.  Traditionally NASA has developed promising technologies to a high 
maturity level enabling FAA to incorporate them into its air traffic 
control system without too much additional development. Now that NASA 
is confining its development work to a basic level of technical 
maturity, does FAA have the resources and capability to fill this void? 
Where will it get the personnel?

A2. In response to the NASA aeronautics program refocusing, the FAA has 
recognized the need to increase funding and attention to longer-term 
research and the transition of lower TRL technologies operational 
maturity. It should be noted that the NASA cutbacks primarily impact 
NASA developed technologies and the transition ``gap'' problem has been 
longstanding for other technologies. The issue is exacerbated by the 
need to modernize the system reflected in the NextGen concepts. It is 
unclear if the FAA has the reservoir of personnel and expertise to 
address the issue.

Transitioning New Technologies

Q3.  You state that FAA's ability to implement change into the air 
traffic management system can take years, if not decades, and you also 
question whether FAA has the core competency to implement new concepts. 
What prevents FAA from implementing changes more rapidly, especially if 
it's their desire? If it's structural, can't FAA change the process to 
make it more responsive? Are legislative changes needed, and if yes, 
what are they?

A3. The task of changing a mature, national, safety critical 
infrastructure, such as the Air Traffic Management (ATM) system, is a 
major challenge. The system must continue to operate around the clock 
and across the Nation while maintaining the current high level of 
safety for each step of the transition path. As the ATM system has 
evolved it has become more interdependent and includes more 
stakeholders. As a result, many potential changes will have broad 
impact and will involve many stakeholders. Proposed changes must also 
pass through much higher levels of safety, environmental (NEPA), and 
financial review than when the ATM system was initially developed.
    For example, the high safety standards and complexity of the system 
make it exceptionally difficult to prove that a fundamentally new 
technology or concept meets the Target Level of Safety (TLS) for the 
system. The difficulty is increased because all the interactions with 
other elements of the system, as well as all failure modes, need to be 
considered. Often the problem may not be a real safety issue but the 
lack of data or analysis to prove that the change will meet the safety 
standard prevents change from occurring. Because safety is the highest 
priority of the ATM, the FAA cannot give operational approval until is 
assured that the change is safe. Similar challenges exist for 
environmental impact reviews as well as the OMB review process for 
federal investment and the individual stakeholder impact analysis.
    Fundamentally, it is a much more difficult problem to change a 
mature ATM system than the original development of that system. We have 
not made changes of the order contemplated by NextGen since the 
development of RADAR based ATC in the late 1950's.

Unmanned Aerial Vehicles

Q4.  NASA, the Defense Department, and other federal agencies have 
demonstrated that Unmanned Aerial Vehicles can be flown safely in the 
national airspace system and have the potential to serve useful civil 
and emergency services roles. Many industry experts envision UAVs 
playing more prominent roles in the U.S. airspace, but FAA requirements 
to fly them are complex and it can take weeks to gain permission to 
fly.

Q4a.  What is the current state of research on operating UAVs in 
controlled airspace?

A4a. The problem of approving UAV operations in civil airspace is an 
example of the difficulty in assuring that changes in the NAS meet the 
high safety standards the FAA believes it has the responsibility to 
protect. While it is true that NASA, the DOD and others around the 
world have flown UAVs in civil airspace these have generally been in 
fairly restricted conditions and there is some disagreement as to what 
the appropriate safety standards for UAVs should be. Because the 
current regulatory structure has assumed human occupants, many of the 
regulations and safety criteria assume that there is a pilot in the 
vehicle and these criteria need to be amended or interpreted.
    Because of the difficulties of evaluating the projected level of 
safety of totally new UAS operational systems it is attractive for the 
FAA to require that the UAS system have the equivalent level of 
function or safety to manned systems. As an example, one of the major 
research areas has been to define technologies or procedures which 
provide the equivalent ``sense and avoid'' capability to a pilot's 
visual ability to avoid traffic. This approach is technically 
challenging and may be appropriate for large, highly capable UAVs, but 
would be prohibitive for very small model scale UAVs. There is also 
research into operational procedures and risk analysis.
    It should also be noted that the FAA and NASA funding levels for 
research on operating UAVs in controlled airspace are modest and do not 
reflect the priority indicated by industry and the Department of 
Defense.

Q4b.  By what date does FAA anticipate UAVs having routine and 
convenient access into the national airspace system?

A4b. For small scale UAVs operating in visual line of sight of a ground 
observer, approval for routine access is expected in the next 18 to 24 
months. For larger scale UAVs the time frame is longer. The technical 
standards process for ``sense and avoid'' avionics is not expected to 
be complete before 2009 and may not be finished until later. If the FAA 
retains the requirement for ``sense and avoid'' capability, routine 
access would not be expected before 2010-2012. In the interim period, 
it is likely that the demand for access will spur more efficient 
processes for limited access through expedited Certificates of 
Authorization (COA) or other processes.

Future Aeronautics Workforce

Q5.  With respect to developing the next generation of aeronautics 
engineers, you state that uncertainties in federal aeronautics research 
funding is having an adverse impact on university programs and the 
pipeline for young talent. Please elaborate: what is the impact and its 
severity? What are FAA and NASA doing to address this challenge?

A5. The NASA Aeronautics Program has been a core supporter of U.S. 
academic research in aeronautics over the past 30 years. The 
significant reduction in the NASA Aeronautics research budget over the 
past few years has reduced the opportunity space and made it difficulty 
to attract young faculty and students to the aeronautical engineering 
field just at the time when the demographics indicate we should be 
building in this area. The FAA and NASA are aware of this problem, but 
it is unclear if they have the resources or focus to turn this tide. It 
should be noted that NASA is attempting to increase academic 
participation in it's National Research Announcements program but this 
is limited to specific topic areas.

Weather Research

Q6.  How does FAA coordinate its weather research programs (FY08 
request is $16.8M; five year request totals $84M) with those of other 
federal agencies (e.g., National Weather Service) to ensure that 
research efforts aren't being duplicated, and that research products 
are being widely disseminated?

A6. There is some coordination between the FAA weather research 
programs and the NWS through the JPDO weather focused activities. There 
is also significant information exchange on research programs through 
the aviation weather research community.

                   Answers to Post-Hearing Questions

Responses by Donald J. Wuebbles, Chair, Workshop on the Impacts of 
        Aviation on Climate Change; Department Head and Professor, 
        Department of Atmospheric Sciences; Executive Coordinator, 
        School of Earth, Society, and Environment, University of 
        Illinois at Urbana-Champaign

Questions submitted by Chairman Mark Udall

Q1.  The 2002 National Research Council report, For Greener Skies: 
Reducing Environmental Impacts of Aviation, stated that research to 
reduce oxides of nitrogen and improve engine efficiency had been 
significantly reduced at NASA and that the research that is supported 
does not carry the work far enough so that results can be readily 
adopted by industry. And in general, the report found that even though 
large uncertainties remain regarding aviation's effects on the 
atmosphere, research budgets for examining the issue had been cut by 
two-thirds in recent years.

Q1a.  Do you know whether the research outlook has improved at NASA 
since the 2002 report?

A1a. The research support at NASA for evaluating the environmental 
effects of aviation emissions has not improved at all; in fact, as far 
as I know, there is currently no support within NASA for aviation 
impact's studies. NASA had a significant research program in the 1990s 
called the Atmospheric Effects of Aviation Project (AEAP) that focused 
on some of the global environmental issues associated with aviation, 
but that program ended by 2001. A much smaller program then developed 
out of NASA Glenn Research Center that continued some support for a few 
special observations (primarily of aerosol emissions on the ground) and 
some atmospheric modeling, but that program ended in 2005. There has 
been no support since then for research to study the potential impacts 
of aviation on climate change. The Workshop I coordinated last June was 
the first attempt to pull the international science community together 
to examine where the science stands since the IPCC special assessment 
on aviation was completed in 1999. Our conclusion was that there was a 
definite need for a new research program in the U.S. on the impacts of 
aviation on climate change.

Q1b.  In your opinion, does FAA have the right level of investment in 
this research? What about other government agencies?

A1b. The FAA is currently not spending any money, as far as I know, on 
basic research to understand the environmental impacts of aviation 
(however, they may be working with the engine manufacturers on 
technology to reduce emissions). Nor is there any support for aviation 
emissions effects coming from other agencies.

Q1c.  What should NASA's role in assessing and mitigating the impact of 
aviation on the environment be? What should FAA's role be?

A1c. I personally think that both NASA and FAA should have a major role 
in further assessing and in mitigating the impact of aviation on the 
environment. NASA has played a major role in past assessments of human 
activities on the global atmosphere, both in terms of global 
atmospheric chemistry (e.g., the ozone layer) and in climate analyses. 
As mentioned above, NASA sponsored the research on aviation emissions 
effects throughout the 1990s and early 2000s. The scientists in that 
program, including myself, were lead authors on many of the chapters of 
the IPCC assessment on aviation impacts on the environment in 1999. 
NASA has also played a strong role in sponsoring technology development 
towards reducing emissions from aviation. As part of its mission, the 
FAA has an obligation to determine mitigation strategies and help 
develop aviation policy. Therefore, a joint program with new money 
aimed at supporting a research program towards fully understanding the 
potential impacts of aviation on climate change, that at the same time 
brings in the concerns of the FAA regarding tradeoff studies to help 
them consider appropriate policies, would likely be best. The funding 
request from the FAA to get some efforts going in 2008 would certainly 
help, but the overall program needs to be much larger.

Q2.  In your testimony you noted the importance of data from satellites 
and airborne platforms for better understanding of the impact of 
aviation on climate change. That sounds like there is a role for both 
NOAA and NASA's Earth Science program in the effort. Do NASA and NOAA 
have programs established to conduct research in the impact of aviation 
on climate change? If so, are they adequate? If not, what else is 
needed?

A2. Both NOAA and NASA are taking important observations and doing 
important analyses to contribute to the basic understanding of the 
effects of human activities on our climate system. Neither, however, is 
currently involved in any research to understand the impact of aviation 
on climate change. The new research program I have proposed should 
definitely coordinate with other climate related studies at NASA, NOAA 
and other agencies. However, this new research program is necessary to 
meeting the needs of the Federal Government and industry to fully 
resolve key uncertainties in our understanding of the impacts of 
aviation on climate change. Improved understanding will be necessary to 
negotiations with other members in ICAO towards future international 
policy affecting aviation.

Q3.  In your testimony you state that ``Decisions with broad policy 
implications, such as the European Emissions Trading Scheme are being 
made without a firm understanding of the underlying science.'' Would 
you please elaborate on what the Europeans are doing relative to 
aviation emissions, and what underlying research is needed to properly 
support an emissions trading scheme related to aviation?

A3. There are a number of different messages coming out of Europe that 
complicates answering this, but I think the key element is that there 
is an indication they want to include a multiplying factor on the 
amount of carbon dioxide emitted from aircraft that would account for 
all of the other effects on climate. Thus, the two percent effect of 
aviation on total human emissions of carbon dioxide would be treated as 
anywhere from four to nine percent of the total problem. The multiplier 
depends on how well we understand the effects of aviation emissions on 
climate resulting from nitrogen oxide emissions, contrail formation, 
and from effects on cirrus clouds. These effects all have large 
uncertainties, and would bring an arbitrariness to any policy developed 
unless these uncertainties are greatly reduced. Various organizations 
in Europe have all talked about policies to reduce contrail formation 
by forcing aircraft to fly at lower altitudes, but this would result in 
increased carbon dioxide emissions. We need improved metrics for the 
climate effects from aviation to put the tradeoffs from different 
emissions on a level playing field--those analyses have not been done 
yet, and really can't be done effectively until the scientific 
uncertainties are reduced.

Q4.  Your workshop concluded that more research is required to 
understand aircraft emissions issues and to suggest policy responses. 
In your testimony you suggest it should be a focus for the U.S. Climate 
Change Science Program. Have you made this suggestion to the Program? 
If so, what was the response? Are you confident that results could be 
available in time to influence the Next Generation Air Transportation 
System, which is going to be developed and implemented between now and 
2025?

A4. I have not talked with CCSP myself, but that is only because I knew 
that the FAA has already had that discussion with them. CCSP 
understands the importance of the issues and is interested in the 
science, but of course has no money itself for supporting the research. 
With the right size program set in place within the next few years, I 
am quite confident we, the science community, can have a sizable 
influence on NextGen. The right size for the research program is to be 
determined (e.g., through discussions with leaders at NASA and other 
agencies that are knowledgeable on the resources needed for the 
measurement campaigns and modeling studies required to meet the program 
objectives), but my guess is we need $7-15M per year for 5-10 years to 
largely resolve the major science issues. Interim findings would likely 
have a significant impact on NextGen.

Q5.  How would you characterize FAA's cooperative research with 
academia? Do you have any recommendations to improve the effectiveness 
of the cooperative activities?

A5. As far as I understand, FAA has very little cooperative research 
with academia that is outside of very specific operations related tool 
development and associated studies. I personally think it would be very 
useful and highly productive for FAA to develop much stronger 
interactions with the academic community. Perhaps a new research effort 
could be developed within FAA that would be aimed at such interactions, 
particularly at addressing questions and issues of interest to FAA but 
at a more basic level.

                   Answers to Post-Hearing Questions

Responses by Stephen A. Alterman, President, Cargo Airline Association; 
        Chairman, Environment Subcommittee, FAA Research, Engineering, 
        and Development Advisory Committee

Questions submitted by Chairman Mark Udall

Q1.  In your testimony you are emphatic that ``there must be a strong 
commitment from both industry and government to both the necessary 
research and the transition from the research mode to one of 
implementation. If either side breaks down, useful projects may be 
doomed.''

Q1a.  What specifically needs to be done to ensure that the commitment 
exists by both industry and government?

A1a. While it is difficult to mandate ``commitment,'' if the government 
adequately defines the precise technology to be implemented and 
provides a detailed, credible description of both the costs and 
benefits, industry buy-in becomes easier. On the industry side, while 
difficult in an uncertain economic environment, technological 
improvements must be analyzed for their long-term implications, not in 
terms of short-term dollars that must be spent. In the end, I expect 
that the FAA will have to mandate the necessary equipage, with industry 
input coming during the rule-making process.
    In addition, if possible in the current political climate, industry 
acceptance could help be ensured if incentives for early equipage were 
given by the Federal Government. Such incentives might include 
accelerated depreciation, tax credits or other forms of financial 
assistance.

Q1b.  Who should be in charge of making sure the transition from 
research mode to implementation takes place?

A1b. With primary responsibility for the National Airspace System, the 
FAA should be in charge of transitioning from research to 
implementation. In doing so, it might be helpful to establish a 
specific position within the agency to work with the Air Traffic 
Organization (ATO) in such transitioning.
    Under no circumstances should the JPDO be put in charge of 
implementation. As a practical matter, the JPDO has become a massive 
bureaucracy in itself, with a focus on planning and development. As a 
multi-agency organization, it cannot focus on the details of air 
traffic technology implementation and placing any implementation 
function within the JPDO will only delay necessary improvements.

Q2.  In your testimony you discuss the importance of ADS-B 
demonstrations. In general, how valuable are technology demonstrations 
or pilot projects to industry acceptance of new technologies? Should 
the FAA be doing more technology demonstrations, and if so, what kinds?

A2. Technology demonstrations and pilot projects are extremely 
important in obtaining industry acceptance of new technologies. Such 
projects provide a ``real world'' analysis of the technology being 
advanced and permit industry to experience the benefits first hand. 
Such pilot programs should be undertaken whenever possible.
    In the context of FAA Reauthorization, programs dealing with 
environmental issues are particularly susceptible to the pilot program 
process. For example, sections 604 (Environmental Mitigation 
Demonstration Pilot Program) and 605 (Grant Eligibility for Assessment 
of Flight Procedures) of the FAA's proposed Next Generation Air 
Transportation System Financing Reform Act of 2007 are extremely 
important and should be enacted by Congress. We urge that they be 
included in the House version of any reauthorization bill. (We also 
strongly urge adoption of section 606 of the FAA proposal (Research 
Consortium for Lower Energy, Emissions and Noise Technology 
Partnership) ).

Q3.  How would you characterize FAA's cooperative research with 
industry? Do you have any recommendations to improve the effectiveness 
of the cooperative activities?

A3. While speaking only from personal experience, I would say that the 
FAA and industry cooperate very well in the research area. For example, 
the industry's ongoing efforts in the ADS-B area began over 11 years 
ago and have included a constant dialogue with the FAA (specifically 
the Safe Flight 21 Office). By working cooperatively with the agency, 
we have been able to reach common understandings on the research to be 
done to mature the technology. Similarly, the Environmental 
Subcommittee of the FAA Research, Engineering and Development Advisory 
Committee (REDAC) has been especially effective in targeting research 
to address significant environmental issues. This subcommittee is made 
up of a broad cross-section of the aviation industry and federal 
agencies and interfaces well with the FAA's Office of Environment and 
Energy.
    If we have learned anything from these activities, it is that 
honest and continual communication between the government and industry 
is essential to mature and implement necessary technologies. Therefore, 
it is important that the FAA REDAC continue to provide the vehicle for 
industry input into the research process.

Question submitted by Representative Ken Calvert

FAA/NASA Collaboration

Q1.  Traditionally NASA has developed promising technologies to a high 
maturity level enabling FAA to incorporate them into its air traffic 
control system without too much additional development. Now that NASA 
is confining its development work to a basic level of technical 
maturity, does FAA have the resources and capability to fill this void? 
Where will it get the personnel?

A1. The FAA, by itself, probably does not currently have the resources 
to fill the NASA void. To enable the agency to obtain these 
capabilities, Congress will have to provide the resources necessary to 
expand the FAA research programs. However, it may not be necessary to 
directly expand the FAA employee base to accomplish this objective. 
Rather, it may be possible to leverage the experience of existing 
research organizations such as MITRE and, in the environmental area, 
the PARTNER Center of Excellence, by increasing the funding for these 
organizations and specifying what projects they will address.

</pre></body></html>
